<html>
<title> - COMMUNICATING WITH THE PUBLIC DURING EMERGENCIES: AN UPDATE ON FEDERAL ALERT AND WARNING EFFORTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
COMMUNICATING WITH THE PUBLIC DURING EMERGENCIES: AN UPDATE ON FEDERAL 
                       ALERT AND WARNING EFFORTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2011

                               __________

                           Serial No. 112-36

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
72-256                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Kathleen C. Hochul, New York
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     2

                               WITNESSES
                                Panel I

Mr. Damon Penn, Assistant Administrator, National Continuity 
  Programs, Federal Emergency Management Agency:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
RADM James Arden Barnett, Jr., Chief, Public Safety and Homeland 
  Security Bureau, Federal Communications Commission:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16

                                Panel II

Mr. Christopher Guttman-McCabe, Vice President, Regulatory 
  Affairs, CTIA--The Wireless Association:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Ms. Suzanne D. Goucher, President and CEO, Maine Association of 
  Broadcasters, Testifying on Behalf of The National Alliance of 
  State Broadcasting Associations:
  Oral Statement.................................................    32
  Prepared Statement.............................................    34
Mr. Allen W. Kniphfer, Emergency Coordinator, Jefferson County, 
  Alabama:
  Oral Statement.................................................    40
  Prepared Statement.............................................    43

                             FOR THE RECORD

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Statement of Jeff Littlejohn, Executive Vice President, 
    Distribution Development, Clear Channel Broadcasting, Inc....     4


COMMUNICATING WITH THE PUBLIC DURING EMERGENCIES: AN UPDATE ON FEDERAL 
                       ALERT AND WARNING EFFORTS

                              ----------                              


                          Friday, July 8, 2011

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Richardson, Clarke, and 
Hochul.
    Mr. Bilirakis. Good morning. The Subcommittee on Emergency 
Preparedness, Response, and Communications will come to order.
    The subcommittee is meeting today to receive an update on 
the efforts of Federal agencies to work with each other and 
emergency management, emergency response providers, and with 
industry to create and implement a Nation-wide alert and 
warning system that will provide timely and accurate alerts to 
the public during an emergency.
    I now recognize myself for an opening statement.
    The various disasters we have had in this country thus far 
this year have served to illustrate that timely communication 
is vital in an emergency and the availability of critical 
information can help individuals protect themselves from harm. 
Be it through television, radio, mobile devices, the internet, 
social media, reverse 9-1-1, or warning signs, emergency 
managers, and emergency response providers must have prompt and 
reliable means to provide information to their citizens.
    At a joint subcommittee hearing last month, Sheriff Richard 
Berdnik of Passaic County, New Jersey, when I asked him a 
question, he noted the challenges his jurisdiction faces in 
alerting the public to an impending hazard. He told us that it 
would take 7 days to reach all of the residents of his county 
using their reverse 9-1-1 system. In my opinion, that is 
unacceptable. This is why I am pleased to hear from our 
witnesses today about advancements in alert and warning 
capabilities.
    This November, FEMA and the FCC will hold the first-ever 
National test of the Emergency Alert System. Following on 
successful tests in Alaska in 2010 and earlier this year, this 
National test will demonstrate the ability to quickly 
disseminate messages Nationally across broadcast media.
    FEMA and the FCC are also working to deploy a system to 
send geographically-based alerts to cell phones, very exciting. 
It is required by the WARN Act. This system known as CMAS or 
PLAN now is required to be deployed Nation-wide by April, 2012. 
Early deployment in New York City and Washington, DC, will 
occur this November.
    At a field hearing in my district last month, we received 
testimony from State and local emergency managers. They are 
very optimistic about the implementation of CMAS or PLAN, 
especially because of its ability to reach commuter and tourist 
populations.
    I will note that there have been some privacy concerns 
raised about PLAN, and I will ask the panel to elaborate on 
that. I am interested to hear from our Federal witnesses about 
the privacy safeguards for the system.
    I would also like to hear about the training that will be 
provided to message originators to ensure proper use of the 
system. It is very important the system be used in a targeted 
way to ensure that when an eminent threat alert is sent people 
take notice.
    As we work to ensure that we reach as many individuals as 
possible through our alert and warning systems, I am interested 
in hearing how the needs of individuals with functional needs, 
such as hearing and visual impairments, are incorporated into 
those efforts. I think we can all agree that the more notice 
and information we can give to citizens to help them get out of 
harm's way of course the better.
    I thank our witnesses for appearing here today, and I look 
forward to your testimony.
    I now recognize the Ranking Minority Member, Ms. Richardson 
from California, for any statements she would like to make. You 
are recognized.
    Ms. Richardson. Thank you, Mr. Chairman.
    Good morning to all of you, and I want to thank you in 
particular, our witnesses, for the service for our country that 
you have done for participating in today's hearing.
    For the record, I want to advise you that at this exact 
same time I am supposed to be in Transportation and 
Infrastructure where we are going to have a markup on votes 
which may require me to depart. So I wanted to make sure that 
you knew that that would be the only reason why I would not be 
here present today.
    Getting back to the point of our hearing, a key component 
of emergency preparedness is the ability to alert and warn the 
public of an impending disaster. The Integrated Public Alerts 
and Warning System, IPAWS, has been designed to do just that by 
enabling alerts to be sent via audio, video, text, and data 
alert messages. These alerts will have the ability to be sent 
to our residential telephones, websites, pagers, email 
accounts, and cell phones, in addition to the traditional 
broadcast media. I don't want to steal too much of Mr. Penn's 
thunder.
    We all know the important role that emergency alerts play 
in saving lives. Most recently, it played a key function in 
alerting local citizens about the devastating tornados in 
Missouri and Alabama.
    As a representative of the 37th Congressional District, I 
represent a large number of constituents whose families were 
directly affected by the Tsunamis that occurred in 2009 in 
American Samoa. I have heard numerous stories about families 
having little time to respond to the massive waves that headed 
to the island.
    Sadly, failures in providing sufficient warning systems 
have led to less people having the ability to seek shelter 
prior to a storm surge. Examples here at home and abroad echo 
the need for enhanced alert and warning capabilities that can 
leverage the numerous ways citizens receive information, 
including through text, email, TV, and social media.
    Through a fully functioning IPAWS system and the 
coordination between our Federal, State, and local governments, 
commercial carriers, broadcasters, and other preparedness 
stakeholders, we will be in a better position to utilize this 
innovative technology and ultimately save lives, which is all 
of our goals.
    I am aware of the good work FEMA has done with IPAWS 
through our oversight efforts last year in Congress. Last fall, 
I was proud to host an IPAWS demonstration event for my 
colleagues; and that was the second opportunity I had to work 
in partnership with Mr. Penn. The demonstration provided a 
clear example of the capability of IPAWS, and I look forward to 
hearing more of how we have progressed.
    I continue to encourage the efforts of FEMA's Office of 
Disability and Integration Coordination and other disability 
stakeholders to ensure that new alert and warning technologies 
meet the needs of all of our Americans. Individuals with 
disabilities are often the most at risk at times of crisis. 
That is why I plan on sharing with our Chairman a legislation 
called the Disability Integration and Coordination Improvement 
Act, which will ensure that the Federal Government has the 
resources it needs to protect all Americans from impending 
disasters, including our Nation's most vulnerable. The 
importance of protecting these communities is critical to our 
emergency preparedness goals.
    Unfortunately, the great progress of IPAWS over the past 2 
years can be derailed due to budget cuts on the Federal, State, 
and local levels. The IPAWS reduction proposed in FEMA's full 
year 2012 budget request will delay retrofitting Primary Entry 
Points, PEP, stations, including one in Los Angeles that will 
directly affect my district and over 20 million citizens. PEP 
stations serve as the primary source of initial broadcast for a 
Presidential or National EAS message.
    I am interested in hearing from those who are testifying 
today how we might move forward and how you view some of the 
budget cuts that will impact the work that we need to do.
    Additionally, this Congress has proposed a number of 
devastating cuts to grant programs, and your thoughts on those 
areas would be welcomed as well.
    The increased intensity of National disasters, combined 
with our need for continued readiness for potential terrorist 
attacks, requires investments and not cuts to our State and 
local partners. I am interested in learning how these 
capabilities will be affected and what suggestions you might 
give us on how we can help.
    I thank you for your testimony and for you being here 
today, and I look forward to everyone's participation.
    I yield back.
    Mr. Bilirakis. Thank you very much.
    I would like to first welcome Representative Hochul from 
the great State of New York to the subcommittee. I look forward 
to working with you. If you would like to say a few words, you 
are welcome. You are recognized.
    Ms. Hochul. I am a representative from upstate New York. We 
have Lake Erie and Lake Ontario and four border crossings with 
Canada. So anything related to Homeland Security is critically 
important.
    I come from local government as well. I was a Town Board 
member and oversaw our police department, our emergency 
operations at the local level, and also was a county official. 
So I come with a various diversity of perspectives to this so I 
am anxious to learn more from this hearing, and I am very 
delighted to be a Member of this committee.
    Thank you.
    Mr. Bilirakis. Thank you.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    Before I introduce our first panel, I ask unanimous consent 
to insert in the record a statement from Mr. Jeff Littlejohn of 
Clear Channel Broadcasting, Inc.
    Without objection, so ordered. Thank you.
    [The statement of Mr. Littlejohn follows:]

 Statement of Jeff Littlejohn, Executive Vice President, Distribution 
             Development, Clear Channel Broadcasting, Inc.
                              July 8, 2011

    My name is Jeff Littlejohn. I am executive vice president for 
distribution development for Clear Channel Broadcasting, Inc. Clear 
Channel Broadcasting is a subsidiary of CC Media Holdings, Inc., and is 
licensed to operate 892 radio stations in the United States. We operate 
stations in 47 of the top 50 radio markets and 89 of the top 100 radio 
markets. According to Arbitron our weekly listening base is nearly 120 
million Americans.
    Congress has long recognized the importance of radio during times 
of crisis. It passed the ``Radio Act of 1912'' in the aftermath of the 
sinking of the Titanic to require U.S. ships to be equipped with ship-
to-shore radios and have trained operators on board around the clock. 
While much has changed in the last 100 years, radio remains an 
important link to the American public when disaster strikes. Radio 
provides the public with advance warning of a pending natural disaster; 
it informs the public while a disaster is occurring, and afterwards it 
helps listeners recover from a disaster.
    Radio is uniquely effective for emergency communications. Radios 
can operate on battery power, so they work even if the electricity 
fails. Virtually every home and automobile in the country has a radio. 
They are portable. And they are inexpensive.
    The Federal Communications Commission (``FCC'') has required radio 
stations to comply with emergency broadcast regulations for years. Many 
of us remember the weekly tests that interrupted the programming we 
were listening to while local radio stations fulfilled their 
obligations to the FCC. In 1997 the Commission updated the old 
Emergency Broadcast System with a new Emergency Alert System (``EAS''). 
The new EAS enables the President, State and local governments, and the 
National Weather Service to override local broadcasts to send emergency 
information to the public. Its digital architecture improves crisis 
communications by enabling radio stations to send and receive emergency 
information quickly and automatically.
    Every one of Clear Channel Broadcasting's 892 stations complies 
with the FCC's EAS regulations. We look forward to working with the 
Federal Government as it conducts the Nation's first-ever Nation-wide 
EAS test on November 9th of this year. We take our responsibility 
seriously and look at this testing as a great opportunity to assess the 
effectiveness of the EAS system and seek ways to further improve upon 
it.
    We at Clear Channel regard the FCC's EAS requirements as a floor, 
and not a ceiling. We take extreme pride and honor in our ability to 
help our neighbors in an emergency. Following Hurricane Katrina and 
other local crises that affected other parts of the country, Clear 
Channel determined that we should always strive to do an even better 
job serving the public during an emergency. We have thus established 
our Emergency Operations Center (``EOC'' or ``Center'') and have 
customized emergency plans for every market in which we operate.
    The Center is located in Cincinnati, Ohio, and is staffed around 
the clock by trained personnel. It serves several functions that 
improve our ability to respond to a crisis and get important emergency 
information out to the public in a timely manner.
    It serves as a ``backstop'' to our personnel in local markets 
during a local emergency. It provides enhanced access by community 
leaders and first responders during a crisis. It is in a position to 
assist local markets to deliver critical information to the public on 
as ``as needed'' basis. In fact, it has the capability to create and 
air local emergency announcements and originate EAS messages during an 
emergency, if the local markets need that assistance. To effectively do 
this, the EOC staff monitors EAS, EMnet, NOAA Weather and news events, 
as well as critical internal broadcast systems to improve the overall 
availability of emergency information in each market. In the event that 
an alert is issued, EOC staff can listen to the program content of any 
of our local stations and monitor the transmission of EAS Alerts in 
response.
    While our local stations are primarily responsible for EAS, our EOC 
is an ideal location to centrally monitor the effectiveness of our 
stations' EAS activity and we hope that during this November's Nation-
wide EAS test we will have public officials visit the Center to witness 
Clear Channel's performance.
    Let me give you an example of the EOC in action. In an emergency, 
station personnel may not always be available. The telephone lines may 
be down, or they may be on the phone with police, fire, or other public 
officials, or perhaps moving from the station to a safer location. We 
have established a local ``hot line'' phone number which is given to 
our local community leaders as a single place for them to call to reach 
station management. If the mayor of a city calls the hot line and the 
Manager is unavailable for any reason, the mayor's call is 
automatically routed to our 24/7 EOC where a trained staffer will 
handle the call and make sure that whatever emergency information the 
mayor has is relayed to the local management team and if appropriate is 
broadcast out over the air. EOC personnel have the home and cell phone 
numbers of our key local market personnel and can quickly connect with 
them at any time of the day or night.
    This past winter our investment in the Center paid off for the 
people of Somerset, Kentucky. Local law enforcement wanted to close a 
particular street late one night, and need to get the word out to the 
public. They called the GM, who wasn't available, so after about 5 
rings the call was automatically rolled over to the EOC, thus avoiding 
what could have been a never-ending game of phone tag. After speaking 
to the local officials and connecting with local management, the EOC 
staff created a short announcement about the street closing, and 
shipped it back to our local Kentucky station where it went out over 
the air--all within 10 minutes of the initial call to the station. EOC 
assisted our local stations carry out this important task while it was 
also focusing on other local efforts; local law enforcement was 
assisted in its efforts to protect the public, and the local community 
was informed and assisted in a time of emergency.
    If any Member of the subcommittee or its staff has an interest in 
coming out to Cincinnati and seeing the Center first-hand, we would be 
glad to show you around--we're very proud of this facility and the 
trained personnel dedicated to running it.
    In addition to our EOC, Clear Channel has created and maintains its 
``Disaster Assistance and Response Plan''--we call it ``DARP''--that 
has amassed and deployed reserve radio transmitters, emergency power 
generators and news-gathering equipment, satellite phones, fuel 
supplies, mobile housing and even a portable tower, all ready to move 
on short notice to help restore operations in one of the cities where 
we operate. When disaster strikes we have the ability to quickly and 
efficiently supplement or replace equipment so we can stay on the air 
and get information out to the public.
    The transmitter site of an AM station in Minot, North Dakota (KRRZ) 
has been under the floodwaters that struck Minot in late June. We were 
able to send the necessary equipment to Minot and keep KRRZ on the air 
broadcasting from a different--and drier--location, providing the 
residents of Minot with needed information on the levels of the Souris 
River; as well as information regarding the availability of emergency 
assistance.
    Because our DARP program has warehoused reserve equipment in 
several cities across the country, when there is an emergency we are 
able to get it to a locality that is in need in a relatively short 
period of time and keep the emergency information flowing to the 
public. We have built and selected the storage facilities so that at 
least one is within no more than a day's drive from each of the local 
markets that Clear Channel serves.
    I am proud to say that Clear Channel has shared our DARP resources 
with our radio industry brethren in times of need. Most recently, Clear 
Channel donated use of our DARP RV to several Zimmer Radio employees in 
Joplin, Missouri who had lost their homes.
    One of the company's primary focuses in the area of emergency 
preparedness has been on the facilities and equipment that Clear 
Channel has deployed to enhance our ability to respond in the event of 
a crisis. In my view these are making a very real contribution to 
improving the ability of civil authorities to communicate with the 
public before, during, and after a disaster strikes. But I would be 
remiss if I didn't take a moment to comment on the commitment of all of 
our employees to the communities that they serve.
    This past April, a tornado ripped through Tuscaloosa, Alabama, 
killing 43 and leveling substantial parts of the city. Clear Channel 
operates four stations in Tuscaloosa. Immediately after the extent of 
the damage became evident, our market manager for Tuscaloosa made the 
decision to pre-empt the normal broadcasts of these stations and 
instead set up a relief clearinghouse through simulcasts. People would 
drop off home-cooked meals at the stations' doors, and our disc jockeys 
delivered them to people who had nothing to eat. The Wall Street 
Journal ran a story on the Clear Channel clearinghouse. The article 
appears at the end of my statement. To quote the story:

``In a typical pattern, someone calls in to express a need for a 
particular area or group. Fifteen minutes later, the same listener 
relates that 10 people showed up and offered their services. Churches 
and other groups often call in to specify a shortage of particular 
goods, such as bug spray and suntan lotion for volunteers, and an 
excess of others, such as diapers. This allows givers to tailor their 
donations. Wal-Mart and other businesses call in to offer free 
prescriptions, charging stations for cell phones, and trucks to remove 
debris upon request.''

    I am extremely proud of all that Clear Channel is doing to enhance 
communications with the public during emergencies. Our Emergency 
Operations Center has added substantially to our ability to support our 
local stations in their communities. And our DARP program helps to 
ensure that Clear Channel stations can remain on the air during and 
after disaster strikes, getting important information out to their 
communities to assist in relief efforts. Most of all, I am proud of the 
people of Clear Channel. They care deeply about the communities where 
they live and work, and when disaster strikes, they respond 
appropriately.
    I will be happy to answer any questions that the subcommittee may 
have, and I appreciate the opportunity to submit this testimony to you 
and assist the subcommitte in compiling a record.

                               Attachment

                     TALK RADIO RIDES TO THE RESCUE

How Clear Channel Stations promoted a remarkable network of volunteers 
        for tornado relief
May 7, 2011, David T. Beito, The Wall Street Journal
    The tornado that tore through here late last month left 41 dead and 
12 still missing. Whole neighborhoods now resemble bombed-out postwar 
Tokyo or Berlin. But this devastation is only part of the story. 
Tuscaloosa is now the scene of an inspiring volunteer relief effort 
taking place without the guidance of any central planner.
    Instead of going home for break, for example, students in the Greek 
system at the University of Alabama and historically black Stillman 
College stayed to cook more than 7,000 meals per day. Local churches 
have assembled armies of volunteers and vast stores of goods, ranging 
from dog food to child car seats, and are dispersing them with no 
questions asked at ``free department stores.'' It is doubtful that a 
more secular city could have fared as well.
    Other than churches, much of the strength of Tuscaloosa's extensive 
mutual aid comes from an unlikely source: Right wing talk radio. The 
four Tuscaloosa Clear Channel stations have pre-empted their normal 
fare of Rush, Hannity and top 40 songs to serve as a relief 
clearinghouse through simulcasts. Gigi South, the local market manager 
for Tuscaloosa Clear Channel, says that it was her decision to begin 
the simulcasts.
    It was hard to do otherwise. Employees saw demolished neighborhoods 
outside their windows and the desperate calls for help came in almost 
immediately. Because many residents lost power and were unable charge 
cell phones, battery-operated and car radios often became their only 
form of communication.
    These stations have only 12 full-time employees among them, but 
they've had a vast impact. The on-air jocks have taken on grueling 
shifts, sometimes working 10 hours straight.
    The goal of the simulcasts is simple: Connect givers and victims 
and allow them to exchange information. According to Ms. South, ``this 
whole thing has been about connecting listener to listener. They are 
the ones doing this. We're just the conduit.''
    Ms. South is being modest. In many cases, people have dropped off 
goods--sometimes dozens of cooked meals--at the station's door. The on-
air jocks have rushed them to those in need. The higher-ups at Clear 
Channel have fully supported the local initiative to pre-empt normal 
programming and have provided generators and engineers to keep the 
stations on the air 'round the clock.
    In a typical pattern, someone calls in to express a need for a 
particular area or group. Fifteen minutes later, the same listener 
relates that 10 people showed up and offered their services. Churches 
and other groups often call in to specify a shortage of particular 
goods, such as bug spray and suntan lotion for volunteers, and an 
excess of others, such as diapers. This allows givers to tailor their 
donations. Wal-Mart and other businesses call in to offer free 
prescriptions, charging stations for cell phones, and trucks to remove 
debris upon request.
    In one particularly moving case, a worn-out relief coordinator for 
an outlying trailer park broadcast a desperate appeal. She had been 
cooking meals for several undocumented Hispanics living in tents who 
were afraid to go to the authorities. She was heartbroken because she 
wanted to visit her mother in Mississippi who had suffered a stroke, 
but she feared leaving her neighbors unaided.
    Within minutes, two nurses, translators, and other volunteers were 
on the scene. The simulcast now includes brief Spanish language 
announcements. And listeners, even if they are normally angered about 
illegal immigration, show no hesitation in lending a hand in such 
cases.
    Callers unable to get through because of tied-up phone lines can 
make use of associated Facebook pages and Twitter accounts. Tuscaloosa 
Clear Channel's tweets now reappear, along with announcements from the 
local government, on outdoor electronic message boards throughout the 
city and the University television station carries live feeds of the 
simulcast.
    Although Tuscaloosa Clear Channel normally caters to a white, 
conservative audience, grateful listeners often make tearful calls from 
predominantly black and Hispanic neighborhoods like Alberta that bore 
the brunt of the tornado. No other radio or television stations in the 
community, public or private, have come close to matching this effort.
    More than a week after the tornado, the calls continue to flow into 
the stations. But Ms. South worries that many Americans are forgetting 
Tuscaloosa as other stories, such as the raid on Osama bin Laden, 
increasingly dominate the news. ``This is like nothing I've seen 
before. This is awful. We're going to need help outside of our town. 
The bottom line is that here the people that we are talking to on air 
are the people that have no homes. They have no home, they have no 
phone service. They have no television. Nothing except the radio.''

    Mr. Bilirakis. I would like to welcome our first panel here 
today.
    Our first witness is Mr. Damon Penn. Mr. Penn is the 
Assistant Administrator of the National Continuity Programs 
Directorate within the Federal Emergency Management Agency, 
FEMA. He is currently overseeing the development of FEMA's 
Integrated Public Alert and Warning System, IPAWS. Mr. Penn 
joined FEMA in 2004 as a defense coordinating officer in 
Florida, my home State. He also served as the DCO the following 
year in support of Mississippi's efforts during Hurricane 
Katrina.
    Prior to joining FEMA, Mr. Penn served 30-plus years with 
the U.S. Army, holding numerous leadership positions. We thank 
you for your service.
    Mr. Penn studied at the U.S. Navy War College, earning a 
master's degree in national security and strategic studies. He 
also earned a master's of science administration from Central 
Michigan University in 1993 and a bachelors of science degree 
in criminal justice from UNC Charlotte.
    Our next witness is Rear Admiral James Barnett.
    Welcome, Admiral.
    Admiral Barnett is the Chief of the Federal Communications 
Commission, FCC, Public Safety and Homeland Security Bureau. In 
this capacity, he is responsible for overseeing the FCC 
activities pertaining to public safety, homeland security, 
emergency management, and disaster preparedness and represents 
the Commission on these issues before Federal, State, and 
industry organizations.
    Chief Barnett served over 30 years in the U.S. Navy and 
Naval Reserves retiring in 2008. Before joining the FCC, Chief 
Barnett was a Senior Research Fellow at the Potomac Institute 
for Policy Studies, a policy think tank that focuses on science 
and technology issues, primarily cyber conflict and 
cybersecurity. Chief Barnett was also a senior partner in 
Mitchell, McNutt, & Sams, P.A. in Tupelo, Mississippi.
    Welcome. Your entire written statements will appear in the 
record. I ask that you each summarize your statements for 5 
minutes.
    We will begin with Administrator Penn. You are now 
recognized, sir.
    I also want to tell the panel that we probably will break 
around 10:45 or so for votes; and, of course, we will come 
right back after votes.
    You are recognized, sir.

  STATEMENT OF DAMON PENN, ASSISTANT ADMINISTRATOR, NATIONAL 
    CONTINUITY PROGRAMS, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Penn. Good morning, Mr. Chairman and Ranking Member 
Richardson and Members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the 
Integrated Public Alert and Warning System, or IPAWS, and to 
update you on the significant progress we have made with our 
partners in the Federal Communications Commission, the National 
Weather Service, and private industry over the past 2 years.
    Our vision of IPAWS has not wavered since the program's 
inception. It must have the capability to notify the American 
public, under all conditions, with a reliable, integrated, 
flexible, and comprehensive system. We must be able to do this 
by redundant means assure everyone is contacted.
    What has changed is our population and how they receive and 
process information. No longer do people solely rely on a 
single source of information. Our reliance on wireless devices, 
internet, social media, and others increase daily.
    Alerting techniques and procedures have changed with 
matched rapidity. Our emergency managers rely on a host of 
alerting methods, including sirens, digital signage, weather 
radios, and others, to communicate critical information to 
their populations.
    These two factors expanded our vision to not only alert by 
multiple means but to be able to incorporate existing equipment 
emergency managers are using while ensuring compatibility with 
emerging technologies. This led us to a basic change in our 
methodology. We found we could no longer rely on the 
requirements-based approach, but IPAWS needed to turn to an 
applications-based approach. This approach sets common 
standards and compliance parameters and allows developers to 
use their imaginations to develop solutions to problems that we 
didn't even know that we had. In the alerts and warnings field, 
this allows us to use existing technologies in use by the State 
and local officials and opens doors for continued development 
of applications.
    If I could ask for your attention to the chart that we 
provided. This depicts the alerting process. You will note that 
the alerting authorities are on the left and the American 
public is on the right with the message dissemination platforms 
in the middle.
    The keystone is the box at the bottom left of the page. 
This is the Common Alert Protocol, or CAP. This is a messaging 
standard that ensures all equipment involved with alerts and 
warnings is interoperable. This is what makes it possible to 
use existing technical solutions on the far right of the chart 
with IPAWS. Emergency managers can upgrade the tools they use 
to become complaint with CAP or purchase new devices with 
confidence that they will work with the Federal backbone. The 
approval of this standard in 2010 was a major breakthrough for 
IPAWS and alerts and warnings.
    Another critical path for FEMA was development of the IPAWS 
open aggregator that you see near the center of the slide. This 
is a platform that takes the CAP-compliant messages and 
distributes them to the alert disseminators that you see. This 
allows emergency managers at all levels to send a single 
message via IPAWS through all the disseminators to the public 
simultaneously. What you see depicted on the slide is not a 
test, it is not a pilot, and it is not a concept. It is a 
fielded capability that we continue to refine.
    Over the past 2 years, FEMA has established interoperable 
standards and interfaces as I just described. We created a 
dissemination network with redundancy, and we integrated 
disparate message distribution paths.
    I would like to take just a few moments to tell you what we 
have done and where we are going with each disseminator you 
see.
    First, the Emergency Alert System. EAS has its roots back 
in the 1950s, and this is the part of IPAWS that communicates 
over radio and television through primary entry points, as the 
Ranking Member mentioned earlier. We have expanded our original 
36 stations to 49 and will reach our goal of 77 by the end of 
calendar 2012. With the overwhelming support that we received 
from our partners in the broadcast industry, this will improve 
our direct coverage to the American people by radio and 
television from 67 percent to over 90 percent.
    We are also updating existing stations to improve 
reliability. Our EAS upgrades extend past the continental 
United States and include the territories of Puerto Rico, the 
U.S. Virgin Islands, American Samoa, Guam, Saipan, and the 
Marianas. I would be happy to expand on those later if you 
would like.
    The Commercial Mobile Alert System, or CMAS, is the 
wireless component of IPAWS. The public-friendly acronym that 
we have adopted with the FCC is PLAN. As mentioned before, this 
system provides Federal, State, territorial, Tribal, and local 
governments the ability to send 90-character text message 
transmissions to mobile devices. The capability is geo-
targetable and is disseminated directly from the wireless 
tower, eliminating concerns for call congestion.
    Currently, 142 providers have agreed to participate in the 
program, and several have already completed testing with us to 
ensure people with disabilities who subscribe to a wireless 
service, receive emergency alerts. Wireless carriers are 
required to transmit messages with both vibration cadence and 
audio attention signals.
    Our coordination with the FCC and the National Oceanic and 
Atmospheric Administration continues to produce geo-targeting 
capabilities and will allow specific targeting methods to be 
used.
    We are currently working on the ability to geo-target 
messages based on plume and weather modeling. Coordination with 
interservice providers continues, and several of the major 
internet service providers have developed applications and 
tested software with us.
    Two major milestones that we have in the upcoming year have 
already been mentioned. That is the CMAS rollout in New York 
City. Mr. Chairman, we thank you for your support and 
leadership and for that of the Mayor and the Commissioner of 
Emergency Management in New York to make that a reality, as 
well as the support of wireless community. Then the other 
pivotal accomplishment, as you mentioned, Mr. Chairman, was the 
Nation-wide test that will be held 9 November.
    I am proud to serve with a dedicated team of professionals 
at all levels of government throughout the private sector and 
all have worked diligently to ensure that we live up to our 
responsibilities to the American public. I would like to thank 
them and thank the committee for unwavering support.
    I also would like to thank you for the opportunity to 
testify today, and I look forward to any questions that you may 
have. Thank you, sir.
    [The statement of Mr. Penn follows:]

                    Prepared Statement of Damon Penn
                              July 8, 2011

                              INTRODUCTION

    Good morning Chairman King, Ranking Member Thompson, and Members of 
the committee. My name is Damon Penn, Assistant Administrator of the 
Federal Emergency Management Agency (FEMA) National Continuity Programs 
(NCP) Directorate. As a U.S. Army Colonel prior to joining FEMA in 
August 2009, I served as the Director of Operations for the Joint Force 
Headquarters (JFHQ) at the National Capitol Region of the United 
States. While leading the JFHQ, I oversaw intelligence, operations, 
force protection/anti-terrorism, planning, the operations center, 
training, ceremonies, and security. I have also served as the Defense 
Coordinating Officer for Florida and was responsible for all Department 
of Defense assets mobilized to assist Florida and Mississippi's 
emergency management efforts during Hurricane Katrina. Now as the 
Assistant Administrator of NCP, I am charged with managing the Federal 
Executive Branch Lead Agent for continuity of National essential 
functions and the Integrated Public Alert and Warning System (IPAWS). I 
want to thank you for the opportunity to appear before you today to 
discuss our accomplishments, challenges, and vision.
    It is my privilege to lead the dedicated professionals with whom I 
work at FEMA. FEMA serves as the Nation's focal point for Government 
continuity planning, guidance, and operations support, and is also 
responsible for ensuring the President is able to address the Nation 
under the most extreme circumstances. The technology used to fulfill 
this central mission has undergone many changes, beginning in 1951, 
when the Control of Electromagnetic Radiation system, or CONELRAD, was 
the chief method of Federal communication during a disaster. CONELRAD 
was replaced by the Emergency Broadcast System in 1963, followed by the 
Emergency Alert System (EAS) in 1994. IPAWS is a modernization and 
integration of the Nation's alert and warning infrastructure.
    Under 47 U.S.C.  606 and regulations implemented by the Federal 
Communications Commission (FCC) (47 CFR Part 11, et seq.), broadcast 
radio and television stations, cable television stations, direct 
broadcast satellite services, and satellite radio operators are all 
required to carry National (Presidential) EAS alerts and support State 
and local EAS alerts and tests. In support of these requirements, 
Executive Order 13407 states, ``It is the policy of the United States 
to have an effective, reliable, integrated, flexible, and comprehensive 
system to alert and warn the American people.''\1\ FEMA created IPAWS 
to be a system of systems to: (1) Modernize the EAS and expand the 
Primary Entry Point (PEP) station system; (2) create an Open Platform 
for Emergency Networks, or IPAWS-OPEN, which can be used at no cost by 
State, local, territorial, and Tribal public safety partners; (3) 
promote collaboration with industry to leverage existing or develop new 
standards and to integrate current and future technologies seamlessly 
into IPAWS; (4) expand traditional alerting and warning communication 
pathways; and (5) working with the Department of Commerce and the 
National Oceanic and Atmospheric Administration (NOAA) to deliver 
alerts through NOAA Weather Radio All-Hazards.
---------------------------------------------------------------------------
    \1\ Executive Order 13407, Section 1.
---------------------------------------------------------------------------
            IPAWS' SIGNIFICANT PROGRESS IN THE LAST 2 YEARS

    The IPAWS program has made significant progress over the past 2 
years, and FEMA is on schedule to achieve our IPAWS vision in fiscal 
year 2012 by having established the following:
    1. Interoperable standards and interfaces;
    2. Redundancy in the dissemination network;
    3. Integrated disparate message distribution paths, meaning that 
        one message can travel many paths to reach the American public; 
        and
    4. Direct coverage for 90 percent of U.S. residents by at least one 
        means of communication.
    We have cleared several significant hurdles in order to ensure 
success moving forward, yet challenges remain. By the end of this 
calendar year, we will roll out the Commercial Mobile Alerting System 
(CMAS) in New York City and Washington, DC in conjunction with the 
major cellular providers. CMAS will enable wireless carriers to provide 
customers with geo-targeted, timely, and accurate emergency alerts and 
warnings to their cell phones and other mobile devices. We are also 
scheduled to conduct the first ever National Test of the Emergency 
Alert System on November 9, 2011, at 2:00 p.m. EST. In parallel with 
the technical challenges and accomplishments, the IPAWS Program 
Management Office (PMO) works closely with industry, State, local, and 
territorial emergency managers, and our Federal interagency partners at 
the FCC and NOAA to help further our mission.
    The IPAWS PMO continues to: (1) Train the alerting community, 
including public safety officials, industry partners, and the American 
public; (2) implement and expand new communications paths; (3) 
provide--at no cost to State, local, territorial, and Tribal public 
safety officials--the capability to use IPAWS-OPEN to send alerts and 
warnings through multiple communication pathways to individuals within 
their jurisdictions; and (4) ensure an environment suitable for 
innovation of new alerting capabilities.

                            THE IPAWS VISION

    We remain steadfastly committed to our vision for IPAWS as a timely 
and accurate alert and warning to the American people in the 
preservation of life and property. In the coming months IPAWS will 
create an integrated capability accessible to all levels of public 
safety officials, allowing State, territorial, Tribal, and local 
officials to issue public alerts and warnings for all hazards. Next, 
IPAWS will expand beyond radio and television, alerting over multiple 
communications channels while maintaining the EAS as an all-hazards 
alerting component. Finally, IPAWS will retain a capability to foster 
growth and development of future alerting capabilities through the 
adoption and promotion of common technical standards and protocols.

                 INNOVATIVE AND ADAPTABLE TECHNOLOGIES

    IPAWS has moved from a requirements-based, single technology 
network approach to an applications-based, open standards platform 
approach. This ensures that IPAWS is accessible to a broad range of 
information processing technologies, networks and equipment so that 
existing private sector alerting and communication systems can easily 
integrate with IPAWS-OPEN. While even basic phones with texting 
capability can receive an alert from IPAWS-OPEN, the open standards 
platform will also allow for future technologies to integrate with 
IPAWS.
    IPAWS-OPEN supports an environment which leverages the industry-
adopted Common Alerting Protocol (CAP) Emergency Data Exchange Language 
standard to improve interoperability across a wide variety of 
technologies and other solutions. As a result, there are 46 private 
sector vendors and 12 public sector organizations currently developing 
and testing products to leverage the IPAWS-OPEN application 
capabilities. The National Public Radio (NPR) also uses CAP messages 
from IPAWS to deliver alerts to people with visual or hearing 
impairments by providing alerts directly to prototype devices that 
activate a bed shaker, display an audio alert in text, or output the 
text to a Braille printer.
    IPAWS' OPEN provides our industry partners with flexibility in the 
development of new types of technologies and fosters greater 
competition and innovation in the development of public alert and 
warning tools.

                           IPAWS' MILESTONES

    IPAWS has achieved notable accomplishments since the beginning of 
fiscal year 2010, including adopting CAP, expanding the PEP station 
system, conducting two successful live code EAS tests in Alaska, 
developing the Commercial Mobile Alert System (CMAS) in partnership 
with the Department of Homeland Security's Science and Technology 
Directorate (S&T), and supporting individuals with access and 
functional needs. These accomplishments are a result of the consistent 
vision of IPAWS, support from authorizing authorities such as this 
committee, and the strong relationships IPAWS PMO has established with 
our public and private partners.

                        COMMON ALERTING PROTOCOL

    FEMA IPAWS officially adopted the CAP Standard on September 30, 
2010, after it was developed by a partnership between S&T and the 
Organization for the Advancement of Structured Information Standards, 
an international standards body. Similarly, FEMA IPAWS adopted the CAP 
to EAS Implementation Guide in May 2010 after it was developed by the 
EAS to CAP Industry Group. The FCC regulates CAP compliance actions by 
EAS participants (such as radio, cable, and television providers, 
etc.). FEMA contracted with Eastern Kentucky University to test vendor 
products for CAP compliance. Vendors' test results are posted on the 
FEMA Responder Knowledge Base website.\2\ The FEMA Responder Knowledge 
Base benefits State, local, territorial, and Tribal public safety 
officials, as well as EAS participants, because it confirms whether 
equipment they are considering purchasing will work with the modernized 
EAS.
---------------------------------------------------------------------------
    \2\ The FEMA Responder Knowledge base website at https://
www.rkb.us/ provides emergency responders, purchasers, and planners 
with a trusted, integrated, on-line source of information on products, 
standards, certifications, grants, and other equipment-related 
information.
---------------------------------------------------------------------------
                          PRIMARY ENTRY POINT

    The PEP system is a Nation-wide network of broadcast stations and 
other entities that is used to distribute a message from the President 
or designated National authorities in the event of a National 
emergency. The IPAWS Program Management Office continues to expand the 
number of PEP Stations across the United States. In August 2009, the 
system originally had 36 PEP stations providing direct coverage to 67% 
of the American people. Currently, there are 49 operational PEP 
Stations and five PEP Stations under construction, resulting in direct 
coverage of 75% of the American people. By the end of 2012, the number 
of PEP Stations will increase to 77 and will directly cover over 90% of 
the American people.
    New PEP Stations use a standard configuration, saving maintenance 
costs and ensuring an ease of movement between stations. The stations 
have double-walled fuel containers with spill containment and a modern 
fuel management system and Electromagnetic Pulse-protected backup power 
and transmitters. Legacy stations are being retrofitted to meet current 
PEP Station resiliency standards.
    While EAS is currently being used in Puerto Rico, FEMA is working 
with the Puerto Rican government so they can locally generate island-
wide alerts. In the U.S. Virgin Islands (USVI), FEMA has already begun 
the process of helping the USVI Government locally generate territory-
wide alerts, as well as assisting them with EAS testing. The IPAWS PMO 
is installing PEP Stations in other territories, including American 
Samoa, in fiscal year 2011 while Guam and Saipan are still in the 
planning phases.

                     LIVE-CODE EAS TESTS IN ALASKA

    The IPAWS Program Management Office worked closely with the Alaska 
Association of Broadcasters, the State of Alaska, the FCC, and other 
key public and private sector partners to conduct two successful live-
code tests in Alaska in January 2010 and January 2011. The purpose of 
these tests was to establish an EAS capabilities baseline and set the 
stage for the first ever National Test of the EAS. The live-code tests 
in Alaska helped FEMA and EAS participating stations refine equipment 
installation/maintenance and standard operating procedures, and clarify 
certain alerting procedures.

                     COMMERCIAL MOBILE ALERT SYSTEM

    Using IPAWS-OPEN, CMAS sends non-subscription based 90-character 
text messages directly from wireless towers and targets phones in the 
geo-targeted area. State, local, territorial, and Tribal public safety 
officials can, at no cost, alert or warn individuals affected by an 
imminent threat or Presidential Message. CMAS mitigates wireless call 
congestion and individuals can receive the alert even if wireless 
towers in their location can no longer support subscriber-to-subscriber 
messaging.
    The IPAWS PMO works closely with S&T, commercial mobile service 
providers, and the FCC to realize our mutual goal of expanding the 
number of communication pathways for alerts and warnings. For example, 
the commercial mobile industry is developing cellular broadcasting 
technology to support Nation-wide alert delivery. As authorized by the 
Warning, Alert, and Response Network Act, S&T is providing the 
research, development, testing, and evaluation support necessary to 
fully implement CMAS.
    The IPAWS PMO adopted industry-developed CMAS interface 
specifications in December 2009, and made the IPAWS CMAS Gateway 
available to carriers for testing in February 2011. Since May 2011, 
most major carriers have or are in the process of completing 
development and testing on the IPAWS CMAS Gateway. The IPAWS Program 
Management Office began C-Interface testing with tier 1 carriers in 
March 2011, over a year ahead of schedule. Since then, Sprint has 
completed testing, and US Cellular, AT&T, T-Mobile, and Verizon 
Wireless are currently undergoing testing, with other providers 
planning to test in the near future.
    CMAS alerts will be transmitted to cell phones within the area of a 
disaster and are by design sent only to phones within the affected 
area. FEMA IPAWS is working with NOAA to develop software for State, 
local, Tribal, and territorial emergency managers that will allow 
alerts and warnings to be geo-targeted. The Geo-Targeted Alert System 
software models the forward progress of a chemical cloud or toxic 
spill, for example, so emergency managers can specifically warn those 
in its anticipated path.
    Our industry partners have reported that some mobile user devices 
currently on the market are already CMAS capable, with all other 
commercially available devices capable by 2014.

          SUPPORT FOR PEOPLE WITH ACCESS AND FUNCTIONAL NEEDS

    The IPAWS Program Management Office has remained engaged with 
agencies, organizations, conferences, and private industry to promote 
IPAWS capabilities and opportunities for the integration of alert and 
warning technologies for people with access and functional needs. We 
have partnered with private organizations such as Signtel, Deaf-Link, 
Alertus, NPR, Readspeaker, Roam Secure, VPN Voice Corp, and public 
organizations such as NOAA, to demonstrate products that incorporate 
CAP-enabled technologies for alerting persons with access and 
functional needs. These technologies and products are routinely 
incorporated into IPAWS demonstrations and have been displayed at such 
events as the International Association of Emergency Managers (IAEM) 
Annual Conference, National Association of Broadcasters Show, National 
Council on Independent Living Annual Conference, the IPAWS 
Congressional Demonstration, and the National Disabilities Rights 
Network Annual Conference. The IPAWS PMO has also participated in such 
events as the Interagency Disability Educational Awareness Showcase, 
FEMA Getting Real Conference, and IAEM's Special Needs Committee 
meeting.
    The IPAWS Program Management Office also partnered with FEMA's 
Office of Disability Integration and Coordination and initiated a 
semiannual outreach roundtable for Federal partners and industry 
experts on disability-related issues. The roundtable includes 
representatives from over a dozen leading organizations representing 
Americans with access and functional needs; it is intended to provide 
periodic updates to our industry Federal partners, as well as elicit 
information on emerging technologies and systems that can integrate 
CAP.

                          THE FUTURE OF IPAWS

    Two major milestones remaining for this calendar year include the: 
(1) CMAS roll-out in New York City and (2) the first ever National EAS 
Test. The IPAWS Program Management Office is actively implementing 
strategic technical and outreach plans to communicate with and engage 
stakeholders and partners to ensure successful implementation and 
testing of both CMAS and the EAS.
    We have already had exceptional cooperation from the wireless 
industry in adapting CMAS. While participation by commercial mobile 
carriers is voluntary, 142 mobile service providers have already filed 
their intent to participate, with the major wireless carriers providing 
CMAS capability 4 months ahead of schedule.
    In addition to the strong working relationship between the wireless 
community and the IPAWS Program Management Office, there has been great 
cooperation from S&T, the New York City Mayor, city leadership, and NYC 
Office of Emergency Management in advance of the first large-scale 
integration test of CMAS between local authorities and IPAWS. We plan 
to make CMAS available in New York City and Washington, DC by the end 
of this calendar year, with the expectation that CMAS will be 
operational throughout the United States in April 2012.
    The National EAS Test is scheduled to take place on Wednesday, 
November 9, 2011, at 2 p.m. EST. The date and time for the test was 
coordinated with the cooperation of numerous public and private 
partners--most notably the broadcast industry and the FCC--to take 
place after peak hurricane season and outside of rush hour on both 
coasts.
    The National EAS Test will help determine where adjustments need to 
be made. We anticipate the test will help us establish an effective 
baseline for future tests, devise mitigation strategies for common 
issues, and assess and adjust training and standard operating 
procedures.
    The 2011 National EAS Test will not incorporate IPAWS system 
technologies. It is an end-to-end test of our Nation's alerting 
capability to demonstrate the readiness and effectiveness of the 
National EAS. The National EAS Test on November 9 will use the legacy 
EAS infrastructure to deliver television and radio alerts across the 
Nation.

                               CONCLUSION

    The IPAWS vision of providing timely alert and warning information 
to the American people in the preservation of life and property remains 
clear and consistent. FEMA is fully committed to IPAWS and recognizes 
its importance to the American public.
    Between now and the end of calendar year 2012, the IPAWS PMO will 
continue to work with State and local alerting authorities to help them 
leverage the IPAWS system and capabilities, including providing the 
certification tools State, local, territorial, and Tribal public safety 
officials will need to have authenticated for access to IPAWS-OPEN. The 
IPAWS PMO will also continue to conduct extensive outreach and training 
to State, local, territorial, and Tribal public safety officials.
    We will continue to work with industry and academia for the 
development of capabilities to alert people with access and functional 
needs and those whose primary language is not English. We will also 
continue our work with the FCC to evolve alert and warning regulations 
to encompass whole of community alerting capabilities, and will work 
with NOAA to fully integrate their alert and warning systems with 
IPAWS.
    The IPAWS PMO will complete the EAS Modernization and PEP Expansion 
program through 77 PEP stations directly covering 90% of the American 
people, retrofitting legacy PEP stations to current specifications for 
all-hazards, resilient capability and modern environmental protection 
configuration. IPAWS will also incorporate back-up EAS through 
satellite messaging capability within the PEP system.
    We will continue to increase the IPAWS-OPEN Alert Aggregator's 
resilience through greater accessibility, reliability, and redundancy. 
We will continue to work with S&T, industry, and other partners to 
explore means of providing alerts through internet services and ``new 
media'' in a secure and integrated fashion. We will continue to promote 
IPAWS standards and CAP, and will encourage the developers of future 
technologies to provide IPAWS capable alerting tools to America's 
public safety officials.
    I thank the committee for the opportunity to testify and I am 
pleased to take any questions.

    Mr. Bilirakis. Thank you, sir. Appreciate it.
    Chief Barnett, you are recognized for 5 minutes.

   STATEMENT OF RADM JAMES ARDEN BARNETT, JR., CHIEF, PUBLIC 
  SAFETY AND HOMELAND SECURITY BUREAU, FEDERAL COMMUNICATIONS 
                           COMMISSION

    Admiral Barnett. Good morning, Chairman Bilirakis and 
Ranking Member Richardson and Members of the subcommittee. I 
really appreciate the opportunity to come talk to you about the 
Federal Communication Commission's recent work in alerting and 
warning the public.
    With over 1,400 tornados and widespread flooding, we have 
already seen too much loss of life from natural disasters this 
year. A bright spot from these terrible reports occurs 
sometimes when we hear survivors say, I got the warning and I 
got to safety.
    This is the crucial premise of all alerts and warnings. We 
may not be able to protect every single person from every 
disaster, but if we can get timely, accurate information about 
imminent danger to people in harm's way, they can take action 
to save themselves and their loved ones. Alerts provide the 
information that turns precious seconds into survival.
    One of SEC's primary statutory obligations is to promote 
safety of life and property through the use of wire and radio 
communications, and we are committed to this responsibility.
    We recognize that this would be a team effort, and that is 
why I am pleased to be here with my friend and colleague, Damon 
Penn of FEMA. The FCC works closely with FEMA to bring the 
future of emergency alerting to citizens now.
    Pursuant to the WARN Act, the FCC in 2008 adopted rules 
allowing wireless carriers to voluntarily transmit emergency 
text like alerts to subscribers' cell phones. Since then, the 
FCC, FEMA, the wireless industry, State, and local governments 
have all worked together to make Personal Localized Alerting 
Network, or PLAN, a reality. Four carriers--Sprint, AT&T, T-
Mobile, and Verizon--have committed to making PLAN available in 
New York City by the end of year, and these carriers and others 
will begin to deploy PLAN in other parts of the country by 
April 7, 2012, which is the deadline set by the FCC.
    PLAN will serve as an important complement to other alert 
systems like the Emergency Alert System, or EAS, by using new 
cellular broadcast technology that will allow Government 
officials to send this text-like emergency alert to everyone in 
a targeted geographic area who has an enabled mobile device. 
This will ensure that alerts reach only the people in danger, 
and there is no charge to the consumer for receiving these 
alerts.
    PLAN creates a fast lane for emergency alerts so critical 
information is guaranteed to get through, even when there is 
congestion on a carrier's network. Moreover, with PLAN, neither 
the alert initiator nor anyone administering the system will 
know who receives the alert. PLAN cannot be used to monitor 
wireless devices or a consumer's location.
    The FCC has also adopted rules to enhance the reliability 
of EAS. EAS requires radio and television broadcasters, cable 
operators, and satellite providers to have equipment that can 
deliver emergency alerts to the public. Although the State and 
local components of EAS are tested regularly, to date EAS has 
never been tested on a Nation-wide basis. To remedy this, FEMA 
and the FCC have announced the first top-down Nation-wide test 
of all the components of the EAS for November 9 of this year. 
The agencies will also work together to be sure that the public 
is aware of the Nation-wide test before it occurs.
    Another key element of public safety communications is the 
ability for someone to call first responders for help. Today, 
the average American sends about 20 texts per day. If you are a 
teenager, that is over 100 texts a day. Almost all mobile 
phones now have cameras, and most of these can shoot video, 
too. But when I tell people that you can't text or send 
pictures to 9-1-1, they are incredulous.
    The sad truth today is that if your child winds up in an 
emergency situation and texts 9-1-1 for help, that call for 
help will go unanswered. This is why the FCC is doing all that 
it can to promote the evolution of a broadband-based, next-
generation 9-1-1 system. As recommended in the National 
Broadband Plan, the FCC has initiated proceedings to have all 
of the 9-1-1 centers, the PSAPs, have access to broadband 
technologies to communicate with 9-1-1 dispatchers and to 
accelerate the deployment of next-generation 9-1-1 which would 
allow the public to send those text messages, video, and photos 
to 9-1-1.
    Once again, I appreciate the opportunity to appear before 
you today. This concludes my testimony. I look forward to your 
questions.
    [The statement of Admiral Barnett follows:]

             Prepared Statement of James Arden Barnett, Jr.
                              July 8, 2011

    Good Morning Chairman Bilirakis, Ranking Member Richardson and 
other Members of the House Subcommittee on Emergency Preparedness, 
Response, and Communications. Thank you for the opportunity to appear 
before you on behalf of the Federal Communications Commission (FCC) to 
discuss the FCC's recent work in alerting and warning the American 
public and our partnership with the Federal Emergency Management Agency 
(FEMA) and other Federal partners in this vitally important area.

                              INTRODUCTION

    National Weather Service preliminary reports show that over 1,400 
tornados have occurred in the United States already this year. We have 
seen many disasters in 2011, and too much loss of life and property. In 
some of the news reports, though, there is a hopeful note. We 
occasionally hear a disaster victim report, ``I got the warning, and I 
got to safety.'' This is the crucial premise of all alerts and 
warnings. We may not be able to protect every single person from every 
disaster, but if we can get timely, accurate information about imminent 
danger to people in harm's way, they can take cover, they can move to 
safety, they can save themselves, they can save their families. This is 
truly a situation in which seconds count and can make the difference 
between life and death.
    One of the FCC's primary statutory obligations is to promote the 
safety of life and property through the use of wire and radio 
communications, and the FCC has a singular commitment to the protection 
of the American public through constantly evolving alert and warning 
systems. We recognize that this should be a team effort, and I am 
pleased to be here with my friend and colleague Damon Penn of FEMA. The 
FCC works closely with FEMA, the National Weather Service and other 
Federal partners to bring the future of alert and warning systems to 
consumers now.
    An essential element of that FCC obligation is the ability to alert 
the American public in times of emergency. Through various initiatives, 
the FCC continues to take significant steps toward implementing one of 
its highest priorities--ensuring that all Americans can receive timely 
and accurate emergency alerts and warnings over each communications 
platform they use.
    Today, I will discuss the FCC's efforts to date regarding the 
Personal Localized Alerting Network, or PLAN, (also known as the 
Commercial Mobile Alerting System, or CMAS) and the Emergency Alert 
System (EAS). I will also discuss briefly our next steps in ensuring 
that the public can receive alerts over multiple communications 
technologies. Finally, I will update you on our efforts to ensure that 
the public has access to more advanced 9-1-1 systems. Like emergency 
alerting, these initiatives are all part of our comprehensive 
commitment to promoting public safety through communications.

             THE PERSONAL LOCALIZED ALERTING NETWORK (PLAN)

    Wireless devices have become ubiquitous across our Nation and, as 
such, provide a particularly effective means to reach the American 
public quickly and efficiently in an emergency. Accordingly, in 2006 
Congress passed the Warning, Alert, and Response Network (WARN) Act. 
The WARN Act sets forth a process for the creation of a warning system 
whereby commercial wireless carriers may elect to transmit emergency 
alerts to their subscribers. This legislation required the FCC to 
undertake a series of actions to accomplish that goal. I am happy to 
report that the FCC has met all of its WARN Act deadlines, and in 
conjunction with FEMA and the wireless industry, has taken significant 
steps to develop PLAN.
    On December 12, 2006, the FCC established and convened an advisory 
committee to recommend technical requirements by which commercial 
wireless carriers could voluntarily transmit emergency alerts--the 
Commercial Mobile Service Alert Advisory Committee (CMSAAC). The CMSAAC 
consisted of 44 members representing State, local, and Tribal 
governments; wireless providers; manufacturers; commercial and 
noncommercial broadcasters; the disabilities community; FEMA; and other 
organizations. By the time it had concluded its work, this unique 
Government/industry partnership had overwhelmingly approved a set of 
recommendations for technical requirements for what would become the 
PLAN. On October 12, 2007, the FCC received these recommendations. On 
April 9, 2008, the FCC adopted requirements that would govern the 
voluntary transmission of emergency alerts by commercial wireless 
carriers.
    Under these rules, participating wireless carriers must begin PLAN 
deployment by April 7, 2012. In May of this year, Chairman Genachowski, 
FEMA Administrator Craig Fugate, New York City Mayor Michael Bloomberg, 
and top executives of the four major Nation-wide carriers--AT&T, 
Sprint, T-Mobile, and Verizon Wireless announced that PLAN would be 
available in New York City by the end of this year, months ahead of 
schedule.
    PLAN is a new technology and service that will turn mobile devices 
into emergency alert devices with transmission of potentially life-
saving messages when there are threats to public safety. It will serve 
as an important complement to other alert and warning systems like the 
EAS. PLAN will allow Government officials to send text-like emergency 
alerts to everyone in a targeted geographic area who has an enabled 
mobile device. Since the alerts will be geographically targeted, they 
will reach the right people, at the right time, with the right 
messages. A PLAN alert will be accompanied by a unique attention signal 
and vibration, which is particularly helpful to people with hearing or 
vision-related disabilities, and there is no charge to the consumer for 
receiving alerts.
    Unlike other wireless-based alerting systems that require 
subscribers to sign up for the service, subscribers will automatically 
receive PLAN alerts as long as they have a PLAN-capable mobile device 
and their carrier participates in PLAN. Alert originators can send 
three types of alerts using PLAN--alerts from the President regarding 
National emergencies, alerts about other emergencies involving imminent 
threats to life or safety, and Amber alerts. Pursuant to the WARN Act, 
subscribers may opt out of receiving all but the National emergency 
alerts.
    PLAN creates a fast lane for emergency alerts, so vital information 
is guaranteed to get through even if there's congestion in the network. 
As we have learned from past large-scale emergencies, a spike in 
customer calls and text messages during emergencies can overload 
communications networks. PLAN effectively addresses this problem by 
using a technology that is separate and different from that used for 
voice calls and traditional text messages, allowing PLAN alerts to get 
through as long as the network is operating.
    It is also important to note that with PLAN, neither the alert 
initiator nor anyone administering the system will know who receives a 
particular alert. Accordingly, PLAN cannot be used to monitor wireless 
devices or a consumer's location or track where someone is. The 
technology is similar to a portable radio--someone receives the radio 
station's broadcast, but the radio station doesn't know where that 
person is or even if she is listening.
    The FCC's partnership with FEMA has been essential to the rollout 
of PLAN and will help ensure a successful Nation-wide launch of PLAN. 
As reflected in the diagram attached as Appendix A, the PLAN 
architecture consists of two major components--the Alert Aggregator/
Gateway and the Carrier Gateway and Infrastructure. The Alert 
Aggregator/Gateway is administered by FEMA as part of its Integrated 
Public Alert and Warning System (IPAWS). This component will receive 
and authenticate alerts from Federal, State, Tribal and local 
governments; verify the originator of the alert; and send the alert 
over a secure pathway to gateways and infrastructure administered by 
participating wireless carriers. These gateways and infrastructure will 
receive alerts and push them out to any PLAN-capable handsets and other 
mobile devices within the alerts' targeted geographic area.
    Over 100 commercial wireless carriers have elected to participate 
in PLAN, so by next April, PLAN will be deployed in cities across the 
country not only by the four major Nation-wide carriers, but also by 
many small and regional carriers. I want to note that, pursuant to the 
WARN Act, participation in PLAN by wireless carriers is completely 
voluntary. Thus, some carriers will offer PLAN over all of their 
service areas, others over parts of their services areas, and others 
over all or only some of their wireless devices. Ultimately, we expect 
that market forces will encourage carriers to make PLAN available in 
most of the country. In the mean time, and starting right now, the FCC 
recommends that consumers ask their carriers whether and where they 
will offer PLAN alerts to PLAN-capable handsets. For more information, 
we encourage the public to visit our website at www.fcc.gov/pshs.

                       THE EMERGENCY ALERT SYSTEM

    I also want to report about steps the FCC is taking to better 
evaluate and enhance the reliability of the Emergency Alert System 
(EAS). For over 50 years, what we now call the EAS has provided 
emergency alerts to the American people, including the ability for the 
President of the United States to deliver a message to the public in 
the event of a National emergency. The EAS requires broadcast and 
satellite radio and television service providers, cable systems, and 
wireline video systems (``EAS Participants'') to install and operate 
equipment capable of delivering emergency alerts to their viewers and 
listeners. The current EAS has been in existence for over 15 years and 
is used successfully and extensively by State and local authorities for 
weather-related and other emergency warnings. The FCC, FEMA, and the 
National Weather Service are charged with maintaining the EAS.
    State and local components of the EAS are tested, respectively, on 
a monthly and weekly basis. However, to date, the EAS has never been 
tested on a Nation-wide basis. EAS is a significant National asset, yet 
we do not know how well the system will work on a National scale. Only 
a top-down, simultaneous test of all components of the EAS can provide 
an appropriate assessment of system performance.
    To remedy this situation, FEMA and the FCC, in conjunction with 
other stakeholders, are now planning to conduct a truly Nation-wide 
test of the EAS. This past February, the FCC issued a rule mandating 
Nation-wide testing, and on June 9, 2011, FEMA and the FCC announced 
that this first test will take place on November 9 of this year.
    In addition to ensuring that the EAS works as intended, the FCC 
continues to make improvements to the EAS. These include expanding the 
traditional analog EAS to digital technologies, including digital radio 
and television, digital cable, satellite radio and television, and 
wireline video systems. The FCC has also required all EAS Participants 
to be able to receive EAS alerts in the Common Alerting Protocol 
(``CAP'') standard adopted by FEMA. CAP is a standard alert messaging 
protocol that allows alert originators to, among other things, send a 
single emergency alert over multiple communications technologies, 
thereby increasing the efficiency of sending alerts and expanding the 
ways in which consumers can receive them.

                   NEXT STEPS FOR EMERGENCY ALERTING

    Looking to the future, the FCC will continue to explore whether 
other communications technologies can provide ways for Americans to 
receive alerts and warnings about imminent threats to safety of life. 
For example, as recommended in the National Broadband Plan, the FCC 
will examine the role that broadband technologies, social networks, and 
other internet-based tools can play in emergency alerting. We will 
continue to learn from experiences at home and abroad. For example, 
earlier this year, Japan experienced a devastating earthquake and 
tsunami that resulted in significant loss of life and damage to 
property. Although these losses were severe, they may have been greater 
if not for Japan's earthquake detection and warning system, which 
relied on elements of broadband technologies to alert the public. These 
experiences can inform our own thinking about how to leverage 
communications technologies to warn the public about impending 
disasters.
    The FCC will continue to take steps to ensure that the public has 
access to emergency alerts and warnings over multiple communications 
technologies. We will continue to work closely with FEMA, the National 
Weather Service, industry, and State and local governments to ensure 
that the benefits of PLAN are available to consumers in all parts of 
the country and to ensure that the EAS continues to provide a reliable 
and effective method to transmit timely and accurate emergency alerts 
to the public. We will aggressively pursue technologies that convey 
information about imminent danger to Americans in harm's way so they 
can take action to save themselves and their families.

                           9-1-1 DEVELOPMENTS

    Another key element of public safety communications is the ability 
of someone to alert first responders of a need for assistance. It is 
critical that we take steps to ensure that today's 9-1-1 system 
supports the communications tools of tomorrow. The communications world 
has changed in so many dramatic ways in recent years, with the dramatic 
growth in the use of mobile phones and broadband. In 2005, not that 
many Americans sent text messages, and the average cell phone 
subscriber typically sent less than two texts a day. Today, it's about 
20 texts a day, and the average teenager sends over 100 a day, which 
tells you something about the direction that this is going.
    In 2005, only 18 percent of U.S. cell phones had cameras. Now 
almost all of them do, and a growing number can also shoot video. Five 
years ago, if I had told people you can't text 9-1-1 or send pictures 
to 9-1-1, they would have said, so what? Today, they think I can't be 
serious. But that's the sad truth. There is a gap between what ordinary 
people do every day with communications technology and the capabilities 
of our emergency response network. That gap is unacceptable and cost 
lives. Right now, if your child winds up in an emergency situation and 
texts 9-1-1 for help, that call for help will go unanswered, even though it 
may never occur to your child that emergency responders cannot receive 
text messages. When texting is the primary way that many people use 
their mobile devices that doesn't make any sense. Fixing this will 
require a sustained team effort, and we're actively working with our 
Federal, State, and local partners to make this a reality.
    The FCC is doing everything it can to promote next generation 9-1-
1. As recommended in the National Broadband Plan, the FCC has initiated 
a proceeding to ensure that the public has access to broadband 
technologies to communicate with 9-1-1 dispatchers and to accelerate 
the deployment of next generation 9-1-1, which could allow the public 
to send text messages, video, and photos to 9-1-1. The FCC has also 
taken actions to improve 9-1-1 by enhancing location accuracy 
requirements for wireless service providers, to be sure first 
responders can find those who call 9-1-1 from their mobile phones.
    These efforts, like our emergency alerting initiatives, serve to 
ensure that the public has access to an effective and reliable public 
safety communications system and, ultimately, to provide for a safer 
America.

                               CONCLUSION

    Public safety and homeland security depend on reliable public 
safety communications, which in turn depend on three key elements. 
First, is the ability of public safety officials and first responders 
to communicate with each other. Second, is the ability to provide 
timely, accurate warnings to the public of imminent danger. Third is 
the ability for the public to call for assistance when it is needed. 
The FCC is committed to ensuring the availability of all three 
elements. Thank you for the opportunity to appear before you today. 
This concludes my testimony, and I am pleased to answer any questions 
you may have.
                               APPENDIX A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To send a PLAN alert, an authorized local alert initiator enters 
descriptive data about an emergency into the PLAN-compliant alerting 
system (``A''). The information is sent to a FEMA Alert Aggregator, 
where it is authenticated and directed to a FEMA-operated Gateway 
(``B''), which reformats the data so it is useable by each wireless 
carrier, and sends it over a secure pathway (``C'') to a wireless 
carrier's Gateway (``D''). The carrier then distributes the alert to 
all customers in the area affected by the emergency by sending it to 
the towers in that area (``E''). PLAN-compatible handsets in the area 
will receive the transmission, deliver the unique PLAN attention signal 
and vibration, and begin to scroll the 90 characters of text across the 
screen.

    Mr. Bilirakis. Thank you very much.
    I will recognize myself for questions, and I will stay 
within the 5-minute period.
    Looks like we are going to have votes earlier than I 
thought. So we will try to get through--we will definitely get 
through the first panel. Thank you.
    Administrator Penn, as I noted in my opening statement, I 
am interested in hearing more about CMAS training that will be 
provided to message originators. I am concerned that some alert 
systems currently in use by State and local emergency 
management officials, such as Alert DC, are used for more than 
just emergency alerts.
    My concern is that if proper training is not provided, CMAS 
may be used to send messages that do not rise to the level of 
imminent threat alerts. This may result in message saturation, 
and individuals may ignore, unfortunately, important messages.
    What outreach has FEMA conducted with State and local 
emergency managers to educate them on the upcoming deployment 
of CMAS? What training will FEMA provide to message originators 
to ensure appropriate use of CMAS? What steps will FEMA take as 
the message validator to ensure that the information arises to 
the level of CMAS alert?
    Mr. Penn. Thank you, Mr. Chairman. Very good questions.
    The next major step for us is training and certification of 
message originators, and the points that you mention are all 
valid. The challenge is to be able to provide them access to 
the system but be able to monitor their progress and be able to 
police the system if we get to a position where they are 
abusing the alerts of imminent threats. We have a program 
developed or are developing a program that is internet-based 
that will give them the basic knowledge that they need to be 
able to input the message and do the buttonology it takes to 
input into IPAWS.
    Part of that certification also includes best practices 
that we have seen throughout the country and a clear definition 
of what imminent threat and what the intent of IPAWS is. So we 
think that is a start.
    Mr. Bilirakis. Can you give us that definition now of 
imminent threat?
    Mr. Penn. I don't have the exact verbiage here before me 
here, Mr. Chairman, but I will be more than happy to provide 
that.
    Mr. Bilirakis. Yeah, could you provide that to the 
committee?
    Mr. Penn. We have spent quite a bit of time drafting that 
to make sure the language is exactly what we want it to be. I 
will provide that.
    Mr. Bilirakis. Please do, thanks.
    Mr. Penn. The part that we can help to police ourselves as 
the system matures and it comes into use is we will be able to 
monitor each alert that has been sent by the originators, be 
they State and local or whatever level the alert has 
originated. We will be able to, by controlling access to the 
system, take anyone off the system that we find is abusing the 
intent and not using the imminent threat guidelines that we 
have laid down. So I think that we have the capability to do 
that, and I think we have a capability to monitor and protect 
the system.
    The real challenge is that each jurisdiction is a little 
different and some of their requirements are a little 
different. We have to be very sensitive to the conditions of 
the State and locals and discuss these in some detail with the 
providers. We have met at several State and local emergency 
manager conferences. We continue to have daily contact with the 
emergency managers on this.
    Again, we have shared some best practices, and we are 
assembling those, and those will be part of the training 
process, and through our outreach I think we can solve a good 
portion of the problem.
    Mr. Bilirakis. Thank you.
    Are we on time as far as I believe it is going to be 
implemented in the District of Columbia and New York by 
November and then in the spring of 2012 around the Nation?
    Mr. Penn. Yes, sir. Actually, we are a little ahead of 
that. We will be able to start to certify initiators within the 
next 2 months or so and get that program started.
    Mr. Bilirakis. Thank you.
    Chief Barnett, some people have expressed privacy concerns 
about CMAS or PLAN technology including the ability to track 
cell phone users. You mentioned this in your opening statement, 
and I have concerns. Would you please elaborate on the privacy 
safety guards in place for this technology? We obviously need 
to get the word out.
    Admiral Barnett. Yes, sir.
    Sir, one of the great things about PLAN is the technology 
it uses really does not allow tracking or monitoring, neither 
by the system administrators--and the way that I would 
analogize it is it is more like your portable radio. In 
essence, the alert comes through the Federal aggregator, it 
hits the cell tower, and it goes out. You don't know who is 
there. The only thing we know is that that particular cell 
phone, enabled cell phone, is in that particular danger area.
    But they receive it. There is no way to tell it has been 
received by the person. There is no way to tell where their 
location is. So think of it like a radio broadcast, and that 
way they can be assured that no one is tracking, no one knows 
the location for them.
    Mr. Bilirakis. Very good. Thank you.
    Well, I think I better yield to our Ranking Member, because 
we are running out of time. So I yield.
    I recognize you for 5 minutes. Thank you.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Penn, my first question is, in light of some of the 
budget cuts as I mentioned in my opening statement, do you 
anticipate any further delays for retrofitting the primary 
entry point stations due to these cuts?
    Additionally, how do you see, if there are delays expected, 
that that would affect the overall progress of IPAWS?
    Mr. Penn. Yes, ma'am. We currently have adequate funds to 
complete the program that we have scheduled for 2012. We did 
make a concession, as you mentioned, by moving the building of 
four primary entry point stations to the right into 2013. That, 
right now, is the only concession that I see that we are going 
to have to make in the program. The administrator of FEMA fully 
supports what it is we are doing, as does the director of 
Homeland Security, or the Secretary of Homeland Security, and 
they have been very judicious in protecting our program.
    A critical path for IPAWS in general is 2012 as we continue 
to develop the aggregator, as we bring other capabilities on-
line, and I think we have adequate funding to do what we need 
to do.
    Ms. Richardson. Okay. My next question is, how are the 
territories in the Tribal areas doing in terms of working with 
you to utilize all the available systems that we are 
developing?
    Mr. Penn. Yes, ma'am.
    We have done a lot of work with the territories in recent 
months. In fact, we have PEP stations now in Puerto Rico and 
the Virgin Islands. American Samoa, we have started PEP 
construction and will complete that in August of this year. We 
have surveyed sites for PEP stations in Guam, Saipan, and the 
Marianas. Those are part of our spring 2012 projects.
    We have also worked with the territories to talk to them 
about emergency management and message distribution throughout 
the territory and how they can use best practices that we have 
seen here on the mainland to help communicate their messages 
better. They have all been very proactive and very excited 
about what we are doing and accepted everything that we have 
offered in the way of advice and in the way of best practices.
    The last contact that we had was with the Puerto Rico 
Telecommunications Regulatory Board back in May when we 
discussed CMAS and talked to them about how to integrate CMAS 
into what they are doing.
    So I am very confident that we made the progress that we 
need to make in the territories and we are moving forward. As 
you know, each are somewhat unique in their requirements, but 
everything that we can provide provides another level of alert 
and warning that they didn't have before we started the 
process. So I think it is going very well.
    Ms. Richardson. So could you please provide to the 
committee in writing what you just said? All of the 
territories, whether they have PEP stations or whether they 
don't, when they should be fully on-line and are there any 
other requirements or participation that we need of them to be 
fully up and running.
    Mr. Penn. Yes, ma'am, would be my pleasure.
    Ms. Richardson. Thank you.
    My next question is for our Rear Admiral, Mr. Barnett. When 
we talk about the WARN Act, how willing have you found that the 
wireless carriers have been in providing this service to their 
customers, given the fact that it is voluntary?
    Admiral Barnett. The wireless industry has really stepped 
up to the plate on this. It is voluntary, but currently we have 
carriers who indicate they will provide coverage, plan coverage 
for part or all of their carriers that we cover, some 95 
percent of subscribers. I have a feeling that once that gets 
fully into place that that percentage is going to go up, and so 
we work very closely. This has been very much a collaborative 
effort between FEMA, the FCC, the wireless industries, and 
State and local government.
    Ms. Richardson. What is your plan--in your testimony, 
though, you referenced, as you just said now, that you think 
the market forces and as it has rolled out more will 
participate. What happens if they don't? What is the plan?
    Admiral Barnett. We will have to take that under 
advisement. I think the first thing is to get it up and 
running. I think the market pressures will do that. If they do 
not for some reason, if it does not roll out that way, we will 
certainly want to look at that. I really see PLAN as the next 
major step in alerting the public because of the near ubiquity, 
it seems, of mobile devices. So this is something that we will 
remain focused on.
    Ms. Richardson. If there is no objection from the Chairman, 
what I would like to request is that you come up with a plan 
if, in the event there was not the participation. Because what 
we don't want to do is wait 6 months or a year and then we find 
out various areas might be particularly vulnerable. Sometimes 
that happens in rural communities, in areas where traditionally 
rollout is a little slower. So if we could look at what is that 
plan now so we are ready so once you do the assessment and you 
know who is or is not participating we would be ready with next 
recommendations.
    Thank you, sir. I yield back.
    Mr. Bilirakis. Thank you. Appreciate it.
    Now Ms. Hochul from the great State of New York, the 
gentlelady is recognized for 5 minutes.
    Ms. Hochul. Thank you, Mr. Chairman.
    Again, I am in a learning curve here, but I did want to 
follow up on the Ranking Member's question. Would you consider 
a proposal to make PLAN mandatory? I am sure there was a lot of 
give and take when this was passed. I wasn't here at the time. 
But is there an argument against making it mandatory so we 
ensure 100 percent coverage?
    Admiral Barnett. I am sure that was discussed when the WARN 
Act was passed. I think, after full deliberation, they decided 
to make it voluntary. Once the carrier signs up, they do have 
to comply with the FCC's rules. Certainly Congress can decide 
if they wanted to make it mandatory. However, I am very 
encouraged by the fact that under a voluntary basis that so 
many have signed up. You are already seeing devices that are 
PLAN capable that are on the market now. Others can be made 
capable through minor software changes. So I think with 95 
percent of the subscribers it looks like it will be covered to 
some degree. That is a first big step.
    Ms. Hochul. Thank you.
    I am also concerned about the statements about not being 
able to send pictures or texts to 9-1-1. What steps do you 
think need to be taken? What do you need from the Federal 
Government? How do we make that happen?
    Because, as you stated so accurately, that is the primary 
means for communication for young people. My kids go out in the 
car. They are not even going to know how to dial a phone 
number. All they know how to do is text. I think people would 
be surprised to find out they could not send a picture of an 
accident or a quick text that says, going off the road----
    So I think, to me, there should be some sense of urgency 
with that. I am just wondering what your thoughts were on how 
we ratchet up the interest in that and make that happen a lot 
sooner. Because that is how young people communicate all the 
way up to--I think that is just the reality. We need to accept 
that. So----
    Admiral Barnett. I think you are exactly right. It was 
brought home to me during the Virginia Tech massacre, where you 
had people hiding, they had to be quiet, they were texting 9-1-
1, and those texts never got through, because the system is 
simply not set up.
    Because really what happened is that 9-1-1 was based on an 
old circuit-switched basis, and then when cell phones came 
along we just kind of modified it slightly. Next-generation 9-
1-1 is the way we need to go. The Commission is very focused on 
this. We have already had a notice of inquiry that gathers a 
great deal of information. We intend--we are in preparation now 
for a notice of proposed rulemaking on that.
    There is some very interesting technologies out there, and 
I am very excited about the aspect of being able to get texts, 
video, and pictures to 9-1-1. There is a lot of preparation--
because the PSAPs, the 9-1-1 centers have to be ready to accept 
those and process.
    But you are exactly right. The potential there for dealing 
with terrorists, for dealing with crime, for dealing with 
medical emergencies is vast. So that is why I think the 
chairman and the commissioners have been so focused on next-
generation 9-1-1.
    Ms. Hochul. Is there anything you need from the 
legislature, from Congress? Is there any assistance you need 
from us?
    Admiral Barnett. Well, the fact of the matter is some of 
the 
9-1-1 centers--I guess most of them are not set up for this 
right now. There are going to need to be some funding questions 
that are addressed on this. The FCC right now is trying to get 
a picture on that.
    During the National Broadband Plan we actually tried to 
look at how many PSAPs actually have broadband connection right 
now. We determined over half. It is certainly not much more 
than half at this point. So they need to be able to upgrade. 
That will take some money. There will need to be some training 
involved in that. We are trying to develop now kind of a cost 
model so that Congress will and other leaders will have 
something to go on to figure out what it will take to bring the 
entire country into the broadband world with regard to 9-1-1.
    Ms. Hochul. That is encouraging that you are on it; and, 
hopefully, we can remedy that very shortly.
    Mr. Chairman, I yield back the balance of my time. Thank 
you.
    Mr. Bilirakis. Thank you very much.
    Well, I think we can start a second round, if that is all 
right. Maybe a couple questions each before we dismiss the 
first panel.
    I wanted to follow up on Ms. Hochul's question. When do you 
anticipate--on the 9-1-1 generation, very exciting and we want 
to be very helpful, when do you anticipate that being 
implemented?
    Admiral Barnett. We completed the notice of inquiry and got 
the information back--I think it was back in March. We are 
still moving through that, preparing the notice of proposed 
rulemaking.
    While I don't like to speak for the commissioners as to 
when they take something up, I know that it is very high on the 
chairman's list, on the commissioner's list. I would hope 
before the end of this calendar year and maybe significantly 
before that we would be able to take that up.
    Mr. Bilirakis. Very good.
    A question for the entire panel. FEMA and the FCC have 
announced the first National test for the Emergency Alert 
System will be conducted, as you mentioned in your testimony, 
on November 9, 2011. Would you please discuss what each of your 
offices will be doing to ensure the success of this test?
    Mr. Penn. Mr. Chairman, the requirement for the 
organization and the actual conduct of the test rests with our 
office. We are the ones that will initiate the message, and we 
are the ones that then will maintain contact with the industry 
and others to make sure that the message has properly been 
sent. We will gather information afterwards and determine what 
worked and what didn't work as part of the system.
    So everything from the initial construct of the message, 
the initial broadcast, through the after-action review and the 
recommendations and findings all belong to FEMA as a 
responsibility for the test.
    Mr. Bilirakis. Very good.
    Chief.
    Admiral Barnett. The FCC adopted some rules that set up the 
National test and even required the EAS participants to report 
their information back in. Under the previous set of rules, 
when they did local tests, monthly tests, they just recorded 
it. It is something that our field agents would go around and 
check the logs every now and then.
    We actually need to have all that information brought back 
so the FCC and FEMA can use it to improve the system. That is 
one thing already done.
    We will work with FEMA to make sure that we get out 
information. Our side of it is primarily working with our 
licensees and regulatees--the broadcasters, the cable 
providers, satellite folks.
    You will be talking to Suzanne Goucher in the second panel. 
She can tell you that the broadcasters are very excited about 
this.
    The participants have stepped forward to do this. First 
with the tests that were conducted in Alaska January of this 
year, January the year before that, we learned a lot from that. 
We will be reaching out to groups that represent various 
disabilities, State and local government, any number of the 9-
1-1 centers. We will be talking to State broadcast 
associations, everybody, so that they know what is coming and 
can understand it.
    Now, for most Americans, they are going to just see this as 
another test of the Emergency Broadcast or Emergency Alert 
System--every now and then I say Emergency Broadcast because I 
grew up with Emergency Broadcast--Emergency Alert System. I 
think the only slight difference that they might notice in that 
and the previous one, this one will be a little bit longer. But 
we are working very closely with FEMA to get the word out.
    Mr. Bilirakis. Very good.
    One more quick question and I will yield to Ms. Richardson.
    Why the name change from CMAS to PLAN with regard to the 
cell phone alerting system?
    Admiral Barnett. I think the thought on that----
    Mr. Bilirakis. It creates a little confusion, in my 
opinion.
    Admiral Barnett. Right. Interestingly, I think the thought 
was cellular mobile alerting system or commercial and mobile 
alerting system was not seen as intuitive to the public. I 
think the Personal Localized Alerting Network and an easy 
acronym like PLAN was that. I will say this. In talking with 
the cellular industry and wireless industry, I think they are 
going to use wireless emergency alerts. So whether or not PLAN 
continues to be used--and you may ask Mr. Guttman-McCabe about 
that, about what their plans for that are.
    Mr. Bilirakis. Thank you.
    Now I would like to yield to the Ranking Member for a 
couple of questions.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Penn, two witnesses on the next panel mention in their 
testimony the need for increased training for emergency 
managers as critical areas will be addressed. What steps are 
being taken to train these emergency managers on IPAWS?
    Mr. Penn. As I mentioned before, one of the critical parts 
that we are doing is training the emergency managers on how to 
initiate messages; and part of that will also be them coming 
back to us and telling us who within their jurisdiction is 
authorized to be a message originator.
    The training program I mentioned is mostly web-based, and 
we will certify them as being able to do the buttonology that 
it takes to format the message. There is a pre-directed form 
where they just fill in the blanks to send out the message. 
Then it also tells them again what kinds of messages are to be 
sent and what imminent threat is and how that whole piece works 
together. So a lot of what we do will be centered around that 
and the training program associated with that.
    Ms. Richardson. Well, sir, if I can interrupt you for one 
second, because I only have 3 minutes and 49 seconds.
    One of the problems with the way that we work is you 
testify. Oftentimes, the first panel leaves, and then the 
second panel comes in. What I am saying to you, though, is that 
the next panel of witnesses say that they need more training or 
that enough, sufficient training hasn't occurred. So can we 
have a commitment from you that you will go back and test and 
validate if in fact the appropriate folks who should be trained 
are getting the appropriate training or they know how to 
communicate with you guys to get that?
    Mr. Penn. Yes, ma'am. I concur with their thoughts. We do 
not have enough training. We are trying the best that we can. 
We will expand it and will continue to do more. But I will work 
very closely with them to understand their concerns and that 
our program is headed in the right direction.
    Ms. Richardson. Possibly a schedule that they might be able 
to anticipate so if they are not in the first wave then they 
can catch into the second one.
    Mr. Penn. Yes, ma'am. Just as an example, we have attended 
125 events since January to try to do that very thing. So we 
will continue to work.
    Ms. Richardson. Okay. My next question is, what efforts are 
being made in regards to alerting individuals with 
disabilities, including those with hearing, vision, and other 
functional disabilities?
    Mr. Penn. Yes, ma'am, that is a very good question as well.
    We have done quite a bit of work with the access and 
functional needs communities. Our most recent engagement was at 
the semiannual Conference For Federal Partners and Industry 
Leaders on Disabilities. We meet routinely with the National 
Center for Accessible Media, we meet with Gallaudet University 
as they are leveraging university work on emerging 
technologies, the National Organization on Disabilities, and 
several others. What I have learned from them is much different 
from what I thought I would learn.
    The disabilities community isn't really faced with a lack 
of technology. The technology exists and a lot of things exist 
that can help them function from day to day. The problem that 
they really have is making the technology affordable.
    To give you an example, when we went to the Association of 
Broadcasters convention we met with an engineer from National 
Public Radio, told him what we were doing, and he brought a 
system over that had he been working on that he connected to 
one of our radios. It took a test alert message that we sent, 
turned it from voice and turned it into text, and then turned 
it from text into Braille. The whole system worked with plug-
and-play technology with no additional software needed. A great 
capability that we didn't know existed that our applications-
based approach helped us achieve that we found out just in a 
sidebar conversation.
    The problem is that device, as an example, retails for over 
$5,000. So we continue to work with the disabilities community 
and help to determine their needs. I was really surprised to 
find that their need is not in the technology but what the 
technology costs for the individual to be able to bring it into 
their home.
    Ms. Richardson. So if you could supply to this committee 
any cost of various things of technology that might be impeding 
folks within the disability community so that we might then 
look at other funding options that might assist as you roll out 
your program.
    Mr. Penn. Yes, ma'am, I will.
    Ms. Richardson. Finally, the current state of local 
broadcasters of emergency management are private-owned systems, 
and they pay for EAS through their own budget. This is a 
question now for our other witness. How do you view that people 
are really going to be able to switch over to this new program? 
I mean, are you getting any pushback in terms of economic 
impacts?
    Admiral Barnett. We are certainly hearing it from some 
smaller broadcasters, for instance. But a good number have 
already made the switch. One of the things that I have been 
amazed, the broadcasters and the EAS participants really see 
this as a civic duty. It is a civic duty that costs money. 
These new units can cost from $2- to $4,000. FCC is not a grant 
agency and does not provide grants on this, but primarily I 
think they do see this as an advantage and something that the 
transition is already occurring. So while we recognize that it 
does cost money, I think that the transition will go smoothly.
    Ms. Richardson. Thank you. I yield back.
    Mr. Bilirakis. Thank you very much. Appreciate it.
    I thank the witnesses for their testimony and the Members, 
of course, for their questions.
    With that, I will dismiss the panel. Thank you so much for 
being here. Appreciate it.
    What we will do, we are expecting a lengthy series of 
votes. They called the votes already. I understand it is eight 
votes. The subcommittee will stand in recess until the 
conclusion of the votes. We will convene immediately following 
the last vote. Thank you very much.
    [Recess.]
    Mr. Bilirakis. The subcommittee will come to order.
    I welcome our second panel. I understand other Members are 
on their way, but we will get started. Thank you for your 
patience. I appreciate it very much.
    Our first witness is Mr. Christopher Guttman-McCabe. Mr. 
Guttman-McCabe is the Vice President, Regulatory Affairs, at 
CTIA--The Wireless Association. Since joining CTIA in 2001, he 
has worked on a wide range of issues, including spectrum and 
homeland security. In his current capacity as vice president, 
he oversees and coordinates the Association's regulatory policy 
advocacy.
    Prior to joining CTIA, Mr. Guttman-McCabe worked as an 
attorney at a D.C.-based law firm and served as an associate in 
the Communication Practice Group advising clients on wireless 
and common carrier issues. Mr. Guttman-McCabe received his B.A. 
in economics from Swathmore College and his J.D. magna cum 
laude from Catholic University with a certificate from the 
Institute for Communications Law Studies.
    Our next witness is Ms. Suzanne Goucher. Welcome.
    Ms. Goucher is the President and CEO of the Maine 
Association of Broadcasters. She is testifying on behalf of the 
National Alliance of State Broadcasting Associations. Ms. 
Goucher joined the Maine Association of Broadcasters in 1994. 
She also served on the Maine Right to Know Advisory Committee 
and is co-chair of the Maine Business Association Roundtable.
    Prior to joining the Maine Broadcasters, she was the news 
director of WFAU-AM and WKGC-FM radio stations. Ms. Goucher has 
a Bachelor's Degree in business administration from Babson 
College in Wellesley, Massachusetts, and a certificate from the 
Publishing Laboratory at Sarah Lawrence College in Bronxville, 
New York.
    Finally, we will receive testimony from Mr. Allen Kniphfer. 
Mr. Kniphfer is the Emergency Coordinator for Jefferson County 
in Alabama. Prior to joining the Jefferson County Emergency 
Management Agency, he has worked in fire prevention and 
security at Hayes International. Mr. Kniphfer played a key role 
in developing Birmingham's action plan when Hurricane Katrina 
struck. Mr. Kniphfer earned his bachelor's degree in management 
from the University of Alabama, Birmingham.
    Welcome. We look forward to your testimony. Thank you very 
much.
    Mr. Guttman-McCabe, you are now recognized for 5 minutes, 
please. Thank you very much.

   STATEMENT OF CHRISTOPHER GUTTMAN-MCCABE, VICE PRESIDENT, 
       REGULATORY AFFAIRS, CTIA--THE WIRELESS ASSOCIATION

    Mr. Guttman-McCabe. Thank you and good afternoon, Chairman 
Bilirakis. Thank you for affording CTIA the opportunity to 
participate in today's hearing.
    My name is Christopher Guttman-McCabe, and I serve as the 
Association's Vice President for Regulatory Affairs. In that 
capacity, I have been involved in the wireless industry's 
efforts to implement the commercial mobile alert service called 
for by the WARN Act, and I am pleased to have the chance to 
share with you today what the wireless industry is doing to 
begin delivery of a state-of-the-art alerting system by early 
2012.
    The WARN Act became law as Title VI of the SAFE Ports Act. 
CTIA strongly supported enactment of that legislation, which we 
believe struck a reasonable balance by attempting to augment 
the existing Emergency Alert System without imposing technology 
mandates on the wireless industry. This approach was consistent 
with and built upon previous public-private partnerships that 
led to the successful creation of Wireless Priority Service and 
wireless AMBER Alert programs.
    In the WARN Act, Congress developed an innovative procedure 
to address the goals of emergency alerting by securing the 
participation of wireless companies in the development and 
deployment of what has been envisioned as a 90-character, geo-
targeted, succinct alert capability that would let consumers 
carrying a wireless device know that there was an imminent 
threat to health or safety.
    From CTIA's perspective, it appears that Congress' vision 
is working as designed. In the first year after the WARN Act 
became law, the FCC established the Commercial Mobile Service 
Alert Advisory Committee, comprised of more than 40 individuals 
representing Tribal, local, State, and Federal government 
agencies, including FEMA and NCS, communications providers, 
vendors, broadcasters, consumers groups and other technical 
experts. I served on that committee on behalf of CTIA. Over 11 
months, the Advisory Committee generated more than 600 
documents, held hundreds of meetings, and spent thousands of 
man-hours to develop a thorough, workable, commercial mobile 
alert systems plan.
    The FCC has issued orders largely adopting the 
recommendations of the committee. Among other things, the FCC's 
orders set forth the alerting service architecture proposed by 
the Advisory Committee and concluded that a Federal entity 
should aggregate, authenticate, and transmit alerts to the 
participating wireless providers. As Administrator Penn has 
detailed, FEMA will play this role.
    The FTC also has required that participating providers must 
transmit three classes of alerts--Presidential, imminent 
threat, and AMBER Alerts--and that consumers be permitted to 
opt out of the latter two but not the first. Importantly, the 
FCC agreed with the Advisory Committee that wireless providers 
opting to deliver alerts should ``not be bound to use any 
specific vendor, technology, or device to meet their 
obligations under the WARN Act.''
    Following issuance of the FCC's first report and order, 
wireless carriers had to elect whether they would participate 
in the delivery of CMAS messages well in advance of finalizing 
the technical specifications for implementing alerts. I am 
pleased to tell the subcommittee that mobile providers 
representing nearly 97 percent of wireless subscribers elected 
to participate and provide wireless emergency alerts, 
demonstrating the success of this public-private partnership. 
Moreover, this figure is likely to increase as additional 
carriers elect to offer the alerts to their customers once the 
system is deployed.
    Since providers made their initial election, the wireless 
industry has been working in close consultation with FEMA and 
the FCC to make the investments and system modifications 
necessary to enable wireless carriers to begin deployment by 
April, 2012; and through advanced efforts by the industry, the 
FCC, and FEMA, CMAS capabilities will be available in New York 
City by the end of this calendar year.
    While we believe the wireless industry is hitting all the 
marks necessary to deliver on the promise of the WARN Act, 
there are two areas beyond our control that must be addressed 
if a seamless National deployment is to occur and be 
operational next year.
    First, FEMA must stand up its CMAS gateway and be capable 
of receiving and distributing alerts to participating carriers. 
Through our cooperative coordination with FEMA, we believe that 
is on track to occur in a timely manner.
    Second, substantial and on-going care must be taken to 
ensure that potential alert originators at the State, county, 
and local levels are properly trained about how and when alerts 
should be originated. This is crucial, because it is these 
alert originators who are responsible for disseminating 
critical information to the public in a timely manner. If 
consumers receive confusing or unnecessary alerts, then even 
the best alerting system will ultimately fail. We urge you to 
exercise your oversight authority to ensure that these 
objectives are received.
    The addition of wireless alerting capabilities to the 
Emergency Alert System will greatly enhance the ability to 
promote public safety and health in times of crisis. The 
wireless industry is committed to begin delivering CMAS 
capabilities next year and to working with FEMA and the FCC to 
ensure that subsequent generations of wireless alerts support 
additional functionality. We look forward to an on-going 
dialogue with the subcommittee as this process moves forward.
    Thank you for the opportunity to appear on today's panel, 
and I look forward to your questions.
    [The statement of Mr. Guttman-McCabe follows:]

            Prepared Statement of Christopher Guttman-McCabe
                              July 8, 2011

    Chairman Bilirakis, Ranking Member Richardson, and Members of the 
subcommittee, thank you for affording CTIA \1\ the opportunity to 
participate in today's hearing. My name is Christopher Guttman-McCabe, 
and I serve as the Association's Vice President for Regulatory Affairs. 
In that capacity, I have been involved in the wireless industry's 
efforts to implement the Commercial Mobile Alert Service (``CMAS'') 
called for by the WARN Act, and I am pleased to have the chance to 
share with you today what the wireless industry is doing to deliver a 
state-of-the-art alerting system by early 2012.
---------------------------------------------------------------------------
    \1\ CTIA--The Wireless Association is a nonprofit membership 
organization that has represented the wireless communications industry 
since 1984. Membership in the association includes wireless carriers 
and their suppliers, as well as providers and manufacturers of wireless 
data services and products. Additional information about CTIA may be 
found at http://www.ctia.org/aboutCTIA/.
---------------------------------------------------------------------------
    The Warning, Alert, and Response Network or WARN Act became law as 
Title VI of the SAFE Ports Act \2\ in October 2006. CTIA supported 
enactment of the legislation, which we believe struck a reasonable 
balance by attempting to augment the existing emergency alerting system 
without imposing new cost or technology mandates on the wireless 
industry. This approach was consistent with, and built upon, previous 
public-private partnerships that led to the successful creation of 
Wireless Priority Service (a collaborative effort between the National 
Communications System and the wireless industry) and the AMBER Alert 
program (a joint effort involving the Department of Justice, the 
National Center for Missing and Exploited Children, and the wireless 
industry).
---------------------------------------------------------------------------
    \2\ Pub. L. 109-347.
---------------------------------------------------------------------------
    In the WARN Act, Congress developed an innovative procedure to 
address the problem of emergency alerting by securing the participation 
of interested non-governmental parties in the development and 
deployment of what has been envisioned as a 90-character, geo-targeted, 
succinct alert capability that would let consumers carrying a wireless 
device know that there is an imminent threat to health or safety. From 
CTIA's perspective, it appears that Congress's vision is working as 
designed.
    In the first year after the WARN Act became law, the Federal 
Communications Commission (``FCC'') established the Commercial Mobile 
Service Alert Advisory Committee (``CMSAAC'' or ``Advisory Committee'') 
comprised of more than 40 individuals representing Tribal, local, 
State, and Federal government agencies (including FEMA and the NCS); 
communications providers; vendors; third-party service bureaus; 
broadcasters; consumers' groups; and other technical experts. I served 
on the Advisory Committee on behalf of CTIA. Over 11 months, the 
Advisory Committee generated more than 600 documents, held hundreds of 
meetings, and spent thousands of man-hours to develop a thorough, 
workable, commercial mobile alerts system plan.
    Following delivery of the Advisory Committee's recommendations, the 
FCC has issued orders largely adopting the recommendations developed by 
the CMSAAC. Among other things, the FCC's orders set forth the alerting 
service architecture proposed by the Advisory Committee and concluded 
that a Federal entity should aggregate, authenticate, and transmit 
alerts to the participating wireless providers. FEMA will play this 
role. The FCC also has required that participating providers must 
transmit three classes of alerts--Presidential, Imminent Threat, and 
AMBER alerts--and that consumers be permitted to opt-out of the latter 
two but not the first. Importantly, the FCC agreed with CMSAAC that 
wireless carriers opting to deliver alerts should ``not be bound to use 
any specific vendor, technology . . . [or] device'' to meet their 
obligations under the WARN Act.\3\
---------------------------------------------------------------------------
    \3\ In the Matter of The Commercial Mobile Alert System, PS Docket 
No 07-287, adopted April 9, 2008, at paragraph 33.
---------------------------------------------------------------------------
    Following issuance of the FCC's first report and order, wireless 
carriers had to elect whether they would participate in the delivery of 
CMAS messages, well in advance of finalizing the technical 
specifications for implementing the alerts. I am pleased to tell the 
subcommittee that mobile providers representing nearly 97 percent of 
wireless subscribers elected to provide wireless emergency alerts, 
demonstrating the success of this public-private partnership. Moreover, 
this figure is likely to increase as additional carriers elect to offer 
the alerts to their customers once the system is rolled out.
    Since providers made their initial elections in September 2008, the 
wireless industry has been working, in close consultation with FEMA and 
the FCC, to make the investments and system modifications necessary to 
enable the CMAS system to be operational by April 2012. And, through 
advance efforts by the industry, the FCC, and FEMA, CMAS capabilities 
will be available in New York City by the end of this calendar year.
    While we believe the wireless industry is hitting all the marks 
necessary to deliver on the promise of the WARN Act, there are two 
areas beyond our control that must be addressed if a seamless National 
deployment is to occur and be operational next year. First, FEMA must 
stand-up its CMAS gateway and be capable of receiving and distributing 
alerts to participating wireless carriers. Through our cooperative 
coordination with FEMA, we believe that is on track to occur in a 
timely manner. Second, substantial and on-going care must be taken to 
ensure that potential alert originators at the State, county, and local 
levels are properly trained about when and how alerts should be 
originated. This is crucial because it is these alert originators who 
are responsible for disseminating critical information to the public in 
a timely manner. If consumers receive confusing or irrelevant alerts, 
then even the best alerting system will ultimately fail. We urge you to 
exercise your oversight authority to ensure that these objectives are 
achieved.
    The addition of wireless alerting capabilities to the Emergency 
Alert System will greatly enhance the ability to promote public safety 
and health in times of crisis. The wireless industry is committed to 
delivering CMAS capability next year, and to working with FEMA and the 
FCC to ensure that subsequent generations of CMAS support additional 
functionality and granularity. We look forward to an on-going dialogue 
with the subcommittee as that process moves forward.
    Thank you for the opportunity to appear on today's panel. I look 
forward to your questions.

    Mr. Bilirakis. Thank you very much.
    Ms. Goucher, you are recognized for 5 minutes.

   STATEMENT OF SUZANNE D. GOUCHER, PRESIDENT AND CEO, MAINE 
   ASSOCIATION OF BROADCASTERS, TESTIFYING ON BEHALF OF THE 
      NATIONAL ALLIANCE OF STATE BROADCASTING ASSOCIATIONS

    Ms. Goucher. Thank you. I am very honored to be here with 
you today to share the often lifesaving and valuable public 
service that full power local radio and television stations 
provide during times of crisis.
    When disaster strikes, Americans know they can turn to 
their local broadcasters for news and information. When the 
power goes out, which it does, when phone service and the 
internet go down, which they do, broadcasters move heaven and 
Earth to stay on the air delivering vital information to 
battery-operated receivers. Wildfires, floods, tornadoes, 
chemical spills, no matter what the event, everywhere across 
our Nation local communities depend on their broadcasters to 
deliver on-the-ground, street-by-street coverage before, 
during, and after disaster strikes.
    In addition to our on-going comprehensive news coverage of 
emergencies, broadcasters are also the backbone of our Nation's 
Emergency Alert System. As you know, EAS is a network that 
seamlessly connects public safety authorities to over-the-air 
radio and television stations and cable systems with the push 
of a button. EAS is used during sudden, unpredictable, or 
unforeseen events to alert people to take immediate action to 
preserve life and property.
    Perhaps the most visible headline-grabbing and heartwarming 
use of EAS is for AMBER Alerts. Since broadcasters created this 
program in 1996, AMBER Alerts have helped to bring 523 children 
home safely after being abducted.
    Radio and television stations are very proud of our 
keystone role in EAS. For 60 years, from CONELRAD through EBS 
to EAS and now on to the next generation of alerting, 
broadcasters stand ready to be America's first informers. We 
consider the delivery of timely alerts and warnings to be the 
highest and best use of our spectrum, our facilities, and our 
resources.
    The hot new buzz in the alerting community is social 
networking, and broadcasters are also leveraging their news 
dissemination capabilities across these pathways. When you 
receive an email, a text alert, or a Facebook message from your 
local radio or TV station, you know you are getting reliable 
information from an authoritative source.
    The on-going effectiveness of the EAS network depends on 
several important factors.
    First, as previously mentioned, a training program for 
State and local public safety officials on how to use EAS is 
desperately needed. The knowledge and expertise of local 
authorities as to how and when to deploy EAS is currently at 
what we consider an unacceptable level. We stand ready to 
deliver the message, but first we need someone to deliver it to 
us.
    We applaud our friends at FEMA for undertaking the 
development of a training program which will certify State and 
local officials to send alerts through the Federal IPAWS 
gateway. While this is a good first step, it does not address 
those State and local officials that don't have the fundamental 
understanding of or willingness to use EAS. Some sort of 
incentive for them to take this training, such as possibly 
tying it to grant funding, would encourage a greater 
understanding of the beneficial uses of the system.
    Second, as you know, FEMA is in the midst of implementing 
the next generation of public alerting, which will modernize 
the technology used to deliver EAS messages through the 
introduction of the Common Alerting Protocol, or CAP. This will 
require most broadcasters to replace their EAS equipment at 
their own expense. This may cost a broadcasting station 
anywhere from $1,200 to $3,000, but broadcasters will do this 
willingly because we consider EAS to be at the core of our 
public service mission.
    We must ensure that as our stations are upgrading to 
receive and retransmit a CAP-formatted message, local and State 
jurisdictions have the proper training and funding to be able 
to send us a CAP-formatted message.
    In addition, States and localities must purchase their own 
EAS origination equipment, and the Federal Government must 
ensure that its primary entry point network is fully built out. 
All of this will ensure that the public will indeed benefit 
from the next generation of public alerting.
    We respectfully urge the committee to consider the creation 
of a National working group on emergency alerting. Governance 
authority for our National warning system is divided among 
several Federal agencies, while the primary use of the system 
is at the State and local level. At present, there is no 
mechanism to bring the message originators and the message 
deliverers together except on an ad hoc basis. As a result, the 
system is not being used as effectively as it could be. 
Creation of a National working group would help to ensure that 
problems get addressed, lines of communication remain open, and 
ideas for continual improvement of the system are brought to 
the fore.
    Finally, broadcasters need credentialing from State and 
local authorities to allow them to access their facilities 
during times of emergency. Congressional action in this area 
could greatly enhance our ability to maintain operations and 
deliver vital information to our audiences.
    I am so grateful for this opportunity to share my views on 
emergency communications to the public, and I look forward to 
working with you toward our shared goal of keeping the American 
people safe through timely alerts and warnings.
    Thank you so much.
    [The statement of Ms. Goucher follows:]

                Prepared Statement of Suzanne D. Goucher
                              July 8, 2011

    Good morning, Chairman Bilirakis, Ranking Member Richardson, 
Members of the committee. My name is Suzanne Goucher. Since 1994 I have 
been the President and Chief Executive Officer of the Maine Association 
of Broadcasters. Thank you for the opportunity to speak with you today 
about the valuable, often life-saving services that full power local 
radio and television stations provide during natural disasters and 
other crises.
    As discussed in detail below, local broadcasters are the most 
important source of vital emergency information for all Americans. In 
addition, local radio and television stations serve as the backbone of 
this Nation's Emergency Alert System (EAS). I am pleased to share with 
you today the views of Maine's broadcasters about how to improve our 
emergency communications system in the digital age.
    To date, much of the discussion related to emergency communications 
has concerned improving interoperability among fire, police, and other 
public safety authorities and emergency operations; namely, the ability 
of these various authorities to communicate with one another during a 
disaster. While broadcasters support this laudable goal, we also 
believe the time is ripe to expand the conversation to include improved 
emergency notification to the public. To a significant degree, 
interoperability and public alerting go hand-in-hand, such that the 
success of each depends partly on the success of the other. For 
example, the lessons learned during 9/11 demonstrate that improved 
emergency communications among public safety officials certainly would 
have improved the critical, life-saving information that could have 
been shared with the public. Below, I will focus my remarks on public 
alerting, and our efforts in Maine to improve emergency notification to 
the public.

I. BROADCASTING IS THE MOST IMPORTANT SOURCE FOR CRITICAL, LIFE-SAVING 
                EMERGENCY INFORMATION FOR ALL AMERICANS

    Broadcasters' commitment to public service is never more apparent 
than during times of crisis. During an emergency--particularly one that 
arises with little notice--no other industry can match the ability of 
full power broadcasting to deliver comprehensive, up-to-date warnings 
and information to affected citizens. Local television broadcasters 
reach 99% of the approximate 116 million households in the United 
States, while local radio reaches an audience of more than 243 million 
Americans on a weekly basis. The wide signal coverage of broadcasters 
ensures that anyone in a car, at home or even walking around with a 
mobile device can receive up-to-the-minute alerts when disaster 
strikes. As a ubiquitous medium, broadcasters understand and appreciate 
their unique role in disseminating emergency information. Radio and 
television broadcasters are first informers during an emergency, and 
Americans know to turn to their local broadcasters first for in-depth 
coverage.
    Radio and television stations are also our Nation's most reliable 
network for distributing emergency information. Even if the electricity 
is out, causing the internet and cable television to go down, and phone 
service is lost because networks are clogged or cell towers or phone 
lines are down, free, over-the-air broadcasters can still be on the 
air. Our dedicated news and weather personnel use their familiarity 
with the people and geography of their local communities to provide the 
most useful, informative news to their audiences, whether that includes 
information on where to shelter-in-place, or which streets will serve 
as evacuation routes, or where local businesses may find fuel or 
generators.
    Broadcasters deliver emergency information with passion. Let me 
give you some recent examples. In May of this year, in the town of 
Joplin, Missouri, local radio station KZRG began wall-to-wall coverage 
an hour and a half before the unprecedented tornado devastated this 
area.\1\ Immediately after the tornado, cell phones, the internet and 
landline telephones went down. KZRG's one-story office building 
remained standing. Zimmer Radio, which owns KZRG and five other 
stations in Joplin, consolidated multiple broadcasts into a single feed 
of nonstop disaster coverage.\2\ Music announcers and talk show hosts 
transformed into on-air first responders and informers.\3\ Employees 
drove to the station immediately after the tornado in order to provide 
information on medical assistance, to help locating missing family 
members, and to direct residents as to where they could buy gas and 
groceries.\4\ Seven of Zimmer Radio's staffers had lost their homes, 
but still they reported for duty to help their neighbors.\5\ In nearby 
Springfield, Missouri, Clear Channel's five radio stations collected 
nearly 50,000 pounds of food and $20,000 of cash for Joplin victims 
from listeners.\6\
---------------------------------------------------------------------------
    \1\ Moni Basu, ``Radio Stations Chug Along 24/7 in tornado-
devastated Joplin,'' CNN (May 24, 2011).
    \2\ Matt Pearce, ``Joplin Radio Stations Become a Lifeline for 
Tornado-Stricken Residents,'' L.A. Times (May 25, 2011).
    \3\ Id.
    \4\ Doug Lung, ``Broadcasters Inform Citizens During Weather 
Emergencies,'' TV Technology (May 26, 2011).
    \5\ ``Radio's Multi-Platform Reach Informs, Alerts Joplin, MO 
Tornado Victims,'' All Access (May 25, 2011).
    \6\ ``Radio Beams Regional Tornado Relief Message,'' Inside Radio 
(May 27, 2011).
---------------------------------------------------------------------------
    A month after the Joplin tornado, flooding in Minot, North Dakota, 
has sent hundreds fleeing from their homes. Residents turned to local 
broadcast television stations for current information. One station, 
KXMC, has been replaying coverage of the floods over and over at the 
request of residents who want to see what is left of their 
neighborhoods. And as The New York Times said in an article last week, 
when the station ``has not been showing viewers their submerged homes, 
it has been broadcasting news conferences, explaining the intricacies 
of dike construction and sharing viewer photos from around the 
town.''\7\
---------------------------------------------------------------------------
    \7\ Brian Stelter, ``This Just In: How Your House Is Faring,'' The 
New York Times (June 27, 2011).
---------------------------------------------------------------------------
    Additionally, as a devastating storm developed near Springfield, 
Massachusetts, last month, all three local broadcast television 
stations went wall-to-wall with coverage. In an area not used to 
tornadoes, the stations captured dramatic images--including those from 
sky-cams of the tornado whipping up water from the Connecticut River--
and broadcasting them to viewers. Following the storm, the stations 
continued to report on the damage and recovery and provided information 
on relief and food supplies.\8\ And the four local radio stations cut 
all music and gave continuous news updates, including live phone calls 
from the Governor and the head of the Red Cross. The news director and 
an announcer also took calls from dozens of listeners looking for 
information on what to do and where to go.\9\
---------------------------------------------------------------------------
    \8\ Scott Fybush, ``Radio, TV React to Mass. Tornadoes,'' NorthEast 
Radio Watch (June 6, 2011).
    \9\ ``CC Cluster in MA. Superserves During Last Week's Tornado,'' 
Radio Ink (June 7, 2011).
---------------------------------------------------------------------------
    Local stations also offer hyper local weather alerts and 
information on multicast channels. TV stations are in the process of 
rolling out innovative mobile DTV services, which will enable viewers 
to receive live, local broadcast television programming--including 
local news, weather, sports, emergency information, and entertainment 
programming--on an ``on the go'' basis on mobile-DTV capable devices 
such as smart phones, laptop computers, and tablets. Over 70 stations 
in Washington, DC, and elsewhere around the country have commenced 
offering mobile DTV service, and hundreds of other stations have 
announced plans to continue the Nation-wide roll-out of mobile DTV in 
the near-term. Mobile DTV is a reliable and spectrally efficient (one-
to-an-unlimited-number) means of disseminating emergency information to 
viewers. Following the devastating earthquake and tsunami in Japan, 
residents reported that the country's mobile television service was a 
lifeline source of information, particularly in the wake of cellular 
network and power outages.\10\
---------------------------------------------------------------------------
    \10\ See, e.g., Michael Plugh, ``What I Left Behind In Japan,'' 
Salon.com (March 22, 2011), available at http://www.salon.com/life/
feature/2011/03/22/japan_i_left_behind/index.html. See also Live Blog: 
Japan Earthquake, The Wall Street Journal (March 11, 2011, 8:06 a.m. 
posting of Chester Dawson) (``Unable to use cell phones, many used 
their smartphones to tune into television broadcasts and find out what 
had happened. `It's very convenient being able to watch live TV when 
the phones are down,' said Minori Naito, an employee of Royal Bank of 
Scotland in Tokyo. `Otherwise, we'd have no idea what is going on.' 
'').
---------------------------------------------------------------------------
    In times of local crisis such as these, broadcasters provide 
astounding service to their communities.
    Beyond anecdotal evidence, statistics paint a vivid picture of the 
power that the broadcast medium has to save lives. Following tornadoes 
that struck in Alabama in late April, Raycom Media conducted a survey 
of residents who were impacted. According to the survey results, a vast 
majority--71% of adults--said they were warned about the storm by 
watching television.\11\ An additional 10% of those surveyed learned of 
the tornadoes via radio. A mere 6% of respondents learned of the 
tornadoes through internet, smartphones, or Twitter/Facebook.\12\ This 
occurred despite the fact that 75% of those interviewed were at home 
during the tornadoes, presumably with access to the internet and other 
sources of information.\13\ This reliance on radio and television for 
dependable, up-to-the-minute information was true even for young 
citizens ages 18 to 24. We might expect this demographic to rely more 
on the internet and social media for information, but fully 77% of them 
reported that they tracked the storms via radio or TV.\14\
---------------------------------------------------------------------------
    \11\ Alabama Tornado Survey, Billy McDowell, VP of Media Research, 
RAYCOM Media (May 2011).
    \12\ Id.
    \13\ Id.
    \14\ 2010 was also a critical year for local broadcasters and the 
communities they served. For example, in early May of 2010, as record 
rainfall hammered the State of Tennessee, every local news station in 
Nashville preempted regular programming in favor of continuous, 
commercial-free weather event content for almost an entire weekend. 
Local radio stations provided constant weather alerts. During the 
flooding, Dennis Banka of WUCZ in Carthage, Tennessee, managed to 
single-handedly keep his station on the air for almost 48 hours 
straight for the benefit of local listeners in need. Mr. Banka and his 
station had vital contacts with emergency personnel and other 
authorities and were able to report critical information about the 
known instabilities of two local dams in a timely manner. Here in 
Washington, during the blizzards that hit the East Coast in 2010, 
broadcasters provided up-to-the-minute information that was critical to 
affected residents. For instance, Washington, DC station WRC-TV's wall-
to-wall coverage and ``potentially life-saving newscasts'' were lauded 
by Maryland Senator Barbara Mikulski. John Eggerton, ``As the Snowy 
World Turns,'' Broadcasting & Cable (Feb. 10, 2010). As Federal 
Communications Chairman (FCC) Chairman Genachowski observed, ``Not only 
were local broadcasters a lifeline for the community, WRC-TV used its 
robust website and Twitter feed to help residents who had lost power 
get up-to-the-minute information through their computers and phones.'' 
Prepared Remarks of Chairman Julius Genachowski, NAB Show 2010, Las 
Vegas, Nevada, at 2 (April 13, 2010).
---------------------------------------------------------------------------
    And there are many more examples. Broadcast stations continue to 
provide emergency information and other services even though the 
costs--in overtime for personnel, in meals and hotels, in equipment, 
and of course in advertising lost due to providing wall-to-wall news 
and information coverage--are substantial. For example, one station 
reports that a single season's hurricane coverage cost $160,000 before 
accounting for lost advertising revenue.\15\ Another station reports 
that it lost 50 percent of its revenue for an entire month following 
the events of September 11, 2001, because its intensive news 
programming preempted so much of its normal programming.\16\ Emergency 
journalism clearly requires the commitment of substantial resources 
from the Nation's local broadcasters.
---------------------------------------------------------------------------
    \15\ The Economic Realities of Local Television News--2010: A 
Report for the National Association of Broadcasters (April 2010) at 24, 
attached to Comments of the National Association of Broadcasters, 
Examination of the Future of Media and Information Needs of Communities 
in a Digital Age, GN Docket No. 10-25 (filed May 7, 2010).
    \16\ Id. at 24.
---------------------------------------------------------------------------
   II. LOCAL BROADCAST STATIONS REMAIN THE BACKBONE OF THE NATION'S 
                         EMERGENCY ALERT SYSTEM

    In addition to the on-going, comprehensive coverage that 
broadcasters provide during emergencies, we are also the backbone of 
the Emergency Alert System (EAS). EAS is a largely wireless network 
that connects over-the-air radio, television and cable television 
systems. The in-place infrastructure of EAS allows the prompt 
dissemination of alerts to the widest possible audience, or to target 
alerts to specific areas, as appropriate. EAS is intended for use 
during sudden, unpredictable, or unforeseen events that pose an 
immediate threat to public health or safety, the nature of which 
precludes any advance notification or warning.
    Under EAS, local broadcasters put their facilities and their 
airwaves at the disposal of Government authorities to transmit life-
saving emergency warnings. EAS can be accessed or triggered by the 
President, Governors, and local authorities under certain conditions. 
Most alerts are originated by the local and regional offices of the 
National Oceanic and Atmospheric Administration's (NOAA) National 
Weather Service (NWS). Broadcasters typically work in partnership with 
State, county, and local emergency managers and public safety officials 
on how best to deploy EAS.
    The content of EAS messages can vary depending on the nature of the 
emergency, but may include information on evacuation plans and routes, 
shelter-in-place instructions, storm paths, and America's Missing: 
Broadcasting Emergency Response Alerts, or Child Abduction AMBER 
Alerts, which help expand the eyes and ears of local law enforcement 
when a child is abducted. Nation-wide, since the inception of AMBER in 
1996, AMBER alerts have helped safely recover more than 523 abducted 
children.\17\ In fact, the Amber Plan was originally created by 
broadcasters with the assistance of law enforcement agencies in the 
Dallas/Fort Worth area.
---------------------------------------------------------------------------
    \17\ See http://www.missingkids.com/missingkids/servlet/
PageServlet?LanguageCountry=en_- US&PageId=2810#2 (last visited June 
28, 2011).
---------------------------------------------------------------------------
    Clearly, EAS participation is an important component of 
broadcasters' public service. Although participation in EAS on a local 
level is technically voluntary, virtually all radio and television 
stations participate, and do so proudly. All EAS equipment is purchased 
by broadcasters at their own expense. All stations must test their EAS 
systems on both a weekly and monthly basis. We have all seen or heard 
the familiar announcement: ``The following is a test of the Emergency 
Alert System. This is only a test.''
    In January 2010, and again in January 2011, the Federal 
Communications Commission (FCC) and the Federal Emergency Management 
Agency (FEMA) jointly conducted State-wide tests of the EAS in 
Alaska.\18\ Radio and television stations in Alaska coordinated closely 
with Federal and local authorities in Alaska to help ensure the success 
of these tests. Their efforts included a comprehensive public awareness 
campaign that provided Alaskans with repeated advance notice of the 
State-wide EAS tests, and helped to prevent any undue surprise or 
confusion.
---------------------------------------------------------------------------
    \18\ See, e.g., Alaska Plans EAS Test Using EAN Code, Radio 
Magazine (Dec. 31.2009), available at http://radiomagonline.com/
studio_audio/EAS/alaska_ean_test_1231.
---------------------------------------------------------------------------
    Building upon the lessons learned in the Alaska tests, the FCC and 
FEMA announced that they would conduct a Nation-wide test of the EAS 
system on November 9, 2011.\19\ The broadcast industry supports this 
National EAS testing. We are committed to working with our Federal and 
local partners to ensure that the National test is useful and 
informative. Broadcasters are also preparing for the National exercise 
by reviewing their internal EAS equipment and processes, and if 
appropriate, upgrading software or hardware in advance of the National 
test.
---------------------------------------------------------------------------
    \19\ See Public Notice, Public Safety and Homeland Security Bureau 
Announces That First Ever Nationwide Diagnostic Test of the Emergency 
Alert System Will Occur On November 9, 2011 at 2 PM EST, EB Docket No. 
04-296, rel. June 9, 2011.
---------------------------------------------------------------------------
    Although broadcasters provide EAS and in-depth emergency 
information as part of their service to the public, and do so 
enthusiastically, participating in a reliable, functional EAS is not 
without certain challenges. For example, in June 2006, President Bush 
issued Executive Order 13407, entitled Public Alert and Warning System, 
which states:

``It is the policy of the United States to have an effective, reliable, 
integrated, flexible, and comprehensive system to alert and warn the 
American people . . . establish or adopt, as appropriate, common 
alerting and warning protocols, standards, terminology, and operating 
procedures for the public alert and warning system to enable 
interoperability and the secure delivery of coordinated messages to the 
American people through as many communication pathways as practicable . 
. . administer the Emergency Alert System (EAS) as a critical component 
. . . ensure that under all conditions the President of the United 
States can alert and warn the American people.''

    In response, FEMA has served as the lead Federal agency for 
developing this program, called the Integrated Public Alert and Warning 
System (IPAWS) Program. Among other things, IPAWS is designed to 
improve public safety through the rapid dissemination of emergency 
messages to as many people as possible over as many communications 
devices as possible. To do this, FEMA's IPAWS program is planning to 
expand the traditional EAS to include additional technologies, to 
capitalize on recent shifts in how many Americans consume information. 
IPAWS will enable Federal, State, territorial, Tribal, and local 
emergency communication officials to access multiple broadcast and 
other communications pathways for the purpose of creating and 
activating alert and warning messages related to any hazard impacting 
public safety and well-being. Broadcasters are working closely with 
FEMA to ensure that EAS via free, over-the-air television and radio 
remains the essential backbone of the next generation of EAS and public 
alerting.
    Broadcasters are also leveraging social media and other message 
pathways to broaden dissemination of alert messages. When you receive 
an emergency alert via email, text message, or Facebook from your local 
radio or TV station, you know you're receiving reliable information 
from an authoritative source.
    In Maine, and Nation-wide, radio and television stations do a 
commendable job assisting public safety officials in disseminating 
emergency information, whether through our on-air news programming, or 
through EAS. Regarding the latter, we fully intend to continue our 
efforts to devote personnel and attention to making sure that our 
internal EAS systems work properly. However, the on-going reliability 
of the EAS network will depend on the success of several important 
developments.
    First, the success of EAS will largely turn on the expertise and 
ability of local authorities to fully deploy EAS and act as a ``civil 
authority'' with full access to the system. In the past, some of the 
isolated instances where EAS could have been used more judiciously 
directly resulted from a lack of awareness or expertise on the part of 
local officials concerning EAS. In this day and age, it is unacceptable 
that some local emergency managers remain unaware of the benefits of 
EAS, or how and when to trigger an EAS alert. Clearly, many State and 
local authorities need additional training on the proper use of EAS and 
the proper crafting of alert messages. At present, the only training 
they receive is the technical manual that comes with an EAS encoder-
decoder. FEMA is taking steps to address this vacuum by creating a 
training and certification program for users of the system. We applaud 
this initiative.\20\
---------------------------------------------------------------------------
    \20\ To this end, it is critical that IPAWS continues to receive 
full funding through the authorization and budgetary process to achieve 
and maintain its public alerting missions.
---------------------------------------------------------------------------
    Second, as mentioned above, FEMA is in the midst of implementing a 
next generation of EAS. This new system will modernize the technology 
used to deliver EAS messages from public safety officials to EAS 
Participants. Under the Commission's existing rules, broadcasters and 
other EAS Participants are required to process an EAS message that is 
formatted in this new ``language,'' known as the Common Alert Protocol 
(CAP).\21\
---------------------------------------------------------------------------
    \21\ CAP is a messaging structure that allows emergency managers to 
provide in a digital format (protocol) detailed descriptions of an 
emergency event. It is an open, interoperable standard. See Second 
Report and Order, 22 FCC Rcd. 13285  22-25 (2007). CAP is also 
backwards-compatible to work with EAS and the NWS' SAME (Specific Area 
Message Encoding) protocol. Id. at  5.
---------------------------------------------------------------------------
    The FCC is in the process of reviewing its EAS Rules, including 
whether to extend the current September 30, 2011 deadline for all EAS 
Participants to install equipment capable of receiving a CAP-formatted 
message.\22\ This will be a substantial burden for a number of 
broadcasters, as it will require the replacement of EAS equipment at 
most radio and television stations. The costs of such equipment are not 
insignificant, particularly to small radio and television stations,\23\ 
still struggling from the recent severe recession. It is critical that, 
as Participants are required to upgrade their equipment to receive a 
CAP-formatted message, local and State jurisdictions have proper 
funding and training to be able to transmit a CAP-formatted 
message.\24\ This will ensure that the public will benefit from the 
next-generation of public alerting.
---------------------------------------------------------------------------
    \22\ See, In the Matter of Review of the Emergency Alert System; 
Independent Spanish Broadcasters Association, the Office of 
Communication of the United Church of Christ, Inc., and the Minority 
Media and Telecommunications Council, Petition for Immediate Relief, 
Notice of Proposed Rulemaking, EB Docket No. 04-296, rel. May 26, 2011.
    \23\ The cost for new CAP-compliant EAS equipment ranges from 
$1,200 to over $3,000 per facility.
    \24\ [sic]
---------------------------------------------------------------------------
    Third, authority for EAS is spread across multiple Federal agencies 
with differing priorities, while the primary use of the system is by 
State and local officials. At present, there is no mechanism for the 
users of the system and the distributors of the messages to come 
together to discuss issues and work out problems. I respectfully 
request the committee to consider adopting language creating a National 
EAS Working Group, and directing it to meet on a regular basis and 
report back to this and other committees of jurisdiction, to ensure 
that the lines of communication remain open and that ideas for 
continuous improvement of the system have a forum in which they can be 
heard.
    One other critical improvement can be achieved without expenditure 
of any funds. Specifically, broadcasters need credentialing from State 
and local authorities to allow them to access their facilities, such as 
studios and transmitter sites, during times of emergency. This will 
enable radio and television stations to repair or maintain their 
equipment and fully leverage their resources, local knowledge, and 
training to keep the public informed during emergencies. While certain 
States accommodate broadcasters who need to access their facilities, 
such cooperation is not universal. Congressional action in this area 
could greatly enhance our ability to maintain operations and deliver 
vital information to our audiences.
    Finally, in Maine, we are undertaking an effort to substantially 
improve and modernize our emergency notification plan. Under this 
``perfect'' notification plan, a managed ``system-of-systems'' would be 
created through which multiple systems would work together to deliver 
more alerts and warnings more securely, faster, and to more people. 
This State-wide program would be designed to take advantage of existing 
investments and future initiatives, including a modernized EAS system, 
and would be poised for connection to any National system that is 
developed. At the same time, however, the plan would maintain primary 
responsibility for alerting at the local level and would include the 
ability to target alerts geographically.
    The goal of this Maine State-wide notification program would be to 
deliver alerts and warnings throughout the State with sufficient 
capability and speed, in advance of pending disasters, to help prevent 
loss of life and property. The program would be consistent with State 
and Federal initiatives and standards. This program will also require 
funding. These funds would be used to create and manage the program, 
facilitate collaboration, develop operational and governance guidelines 
and training, purchase technology, and conduct public outreach. Maine 
has recently undergone its third round of budget-cutting in the past 6 
months. The State cupboard is bare, and a large question looms: How 
will the State pay for the system it needs to take advantage of these 
new technologies?
    A properly working EAS is a fundamental and essential component of 
our Nation's Homeland Security. It is crucially needed in our State of 
Maine to respond to the myriad of potential man-made and weather-
related threats facing our region. One of the 9/11 terrorists began his 
fateful trip at the airport in Portland, Maine, on his way to Boston. 
We share a long, rural border with Canada that is difficult to secure. 
We have a large oil depot in South Portland that provides our winter 
heating supply. Bath Iron Works is a primary defense contractor to the 
U.S. Navy. The Seabrook nuclear power plant sits just 15 miles below 
our southwestern border. And we are experiencing seemingly more severe 
weather events in recent years, including 25 tornado warnings between 
2009 and last week, which have resulted in 15 confirmed tornado touch-
downs. Even in a small, rural State like Maine, a hardened, fully 
capable alerting system is necessary to ensure the safety of our 
citizens and our infrastructure.
    Maine is grateful to Chairman Bilirakis and this committee for 
hosting this hearing and for your interest in improving our 
communications to prevent the loss of life and property in the future. 
As we continue to discuss damage estimates, disaster-related costs, and 
rebuilding our communities after the recent severe floods, tornadoes, 
and wildfires around the United States, we must take care not to 
overlook this opportunity to improve public warning and emergency 
communications in advance of the next event, instead of during its 
aftermath. We should be planning for the next emergency, not preparing 
for the last one. Thank you.

    Mr. Bilirakis. Thank you very much for your testimony. I 
appreciate it.
    Mr. Kniphfer, you are recognized for 5 minutes, sir.

    STATEMENT OF ALLEN W. KNIPHFER, EMERGENCY COORDINATOR, 
                   JEFFERSON COUNTY, ALABAMA

    Mr. Kniphfer. Mr. Chairman and Members of the subcommittee, 
good morning. On behalf of the 665,000 residents of Jefferson 
County, Alabama, thank you for this opportunity to testify 
today.
    On April 27, 2011, our county, which is the most populous 
in Alabama, was struck by four tornadoes in a single day, 
destroying or heavily damaging nearly 5,000 homes and 
businesses and displacing thousands of residents. The cost of 
cleaning up the rubble alone will approach $260 million, while 
total property damage is estimated at $1 billion.
    Our response to and recovery from this natural disaster has 
reinforced a lesson we already had learned from hard 
experience, that every emergency occurs at the local level. 
With this in mind, local officials must be prepared to respond 
quickly and effectively--especially in the initial phase of a 
disaster--before our State and Federal Governments provide 
supplemental assistance.
    My office, the Jefferson County Emergency Management 
Agency, is responsible for ensuring that the citizens of our 
county are prepared to respond to, and quickly recover from, 
any emergency or disaster that confronts us. As a result of our 
preparations, we were ready to fulfill that mission when the 
April tornadoes hit.
    The single most important aspect of any disaster recovery 
effort is the ability to communicate. Communication is not 
simply the ability to speak to others but also the ability to 
transfer data. By way of example, our neighbors in Tuscaloosa 
County had less than an hour before the same storm struck 
Jefferson County. All of the assets they owned for use in a 
disaster were destroyed. Cell phone towers were damaged, 
internet access was minimal, many roads were impassable, and 
communication was virtually non-existent. Tuscaloosa County's 
emergency responders found it difficult to communicate with 
each other and with the outside world.
    We were more fortunate in Jefferson County. Our emergency 
operations center survived the storm intact. What we were not 
prepared for was the enormous amount of in-bound phone traffic 
that overwhelmed our telephone system and made out-bound 
calling difficult. But we had a unique asset, a mobile 
communications unit that gave our emergency management team 
immediate, full-time phone and internet service.
    This mobile communications unit, developed and built, Mr. 
Chairman, by a small business called F4W, Inc., in your home 
State of Florida, was a lifesaver for the people of Jefferson 
County. It was up and running even before the tornadoes struck, 
providing fixed and mobile communications to our emergency 
responders throughout the entire recovery process.
    Because we had the ability to communicate, we could execute 
our emergency operations plan immediately. Our first responders 
knew quickly what to do and where to go, and we were able to 
help our citizens to begin recovering from this terrible 
disaster quickly and efficiently.
    In addition, we were able to increase our communications 
capabilities throughout the recovery process, to meet needs we 
had not previously anticipated. Because county residents had no 
access to cell phones or the internet for a considerable period 
of time, we established telecommunications registration centers 
throughout the county, giving residents the means and 
opportunity to make phone calls and report damage to the 
Federal Emergency Management Agency via the internet. To 
fulfill this need, we rented additional mobile communications 
units from F4W.
    In our emergency operation center, we further expanded our 
abilities by installing, on the fly, a private branch exchange 
system that mirrored our fixed-wire telephone system, enabling 
our responders to speak to each other by dialing a four-digit 
extension code, no matter what unit supported their 
communications. They were also able to text-message, 
electronically chat, and email each other seamlessly. Today, 
this provides us with a redundant system in the event our 
primary system is off line for any reason. The back-up system 
kicks on, and we never miss a step. Once again, this was 
provided for us by F4W.
    When we learned that Tuscaloosa County's emergency response 
team assets were destroyed along with their primary 
headquarters, we dispatched our mobile emergency management 
trailers there. With that support, their emergency management 
infrastructure was back on-line less than 36 hours after the 
storm hit. Again, the communication equipment we used to 
support Tuscaloosa were products we have purchased from F4W 
over the past several years.
    Now that the emergency phase of the April 27 disaster has 
mostly passed, I am focused on continuing to enhance our 
ability to respond with optimal efficiency and speed, 
regardless of the situation. My organization embraces the 
standards established and administered by various Federal 
agencies, including SAFECOM, the National Emergency 
Communication Plan, the National Emergency Response 
Interoperability Framework, and the Resilient Communication 
System of Systems published under the DHS SECURE Program. We 
also support CAP, HIPAA, IPAWS, OASIS, and Sarbanes-Oxley.
    As emergency responders, we embrace the new standards and 
technology developed from those protocols. But, regardless of 
these standards and new discoveries, I must, above all, perform 
the requirements of my position to serve the citizens of my 
county to the best of my ability. Our organization realizes 
that we cannot wait for decisions to be made in Washington when 
our people need protection of their lives and property in the 
immediate term.
    The Emergency Broadcast Network, which has existed for 
decades, did save lives during our recent emergency. But I 
believe, in my county, that I require a more effective approach 
to alerting the general public, one that meets our requirements 
and one that we can afford. In that effort, budget cuts to 
Federal programs make no difference in our organization, 
because whatever happens we will find a way to acquire and 
implement the tools necessary to support our citizens and, when 
we can, our neighbors as well.
    Another way of putting it is that, although budgets have 
shrunk, our responsibilities to our citizens have not. 
Disasters are going to continue to occur, regardless of how 
much or how little resources are available to us. To the extent 
that adequate funding continues to be a challenge, we will 
continue to substitute innovation, longer work hours, and 
complete dedication to our life-saving jobs.
    Having said that, I would add that, yes, cutting Federal 
grant funds to supplement the infrastructure of alert warning 
systems could impact many communities. But in considering that, 
we should also take the opportunity to ask how effectively 
those funds have been spent to date. In my view, it might make 
more sense, practically and financially, to target grant funds 
for regional projects that take into consideration the specific 
needs of affected communities, as opposed to using grant 
funding to leverage for imposing uniform standards that leave 
some critical needs on the local level unmet. This approach 
would allow committees such as this one to see first-hand how 
taxpayer dollars are spent and the results of successful 
implementations, as well as learning from failures.
    Here is how we are investing in our future in Jefferson 
County: Our current system requires us to use specifically 
designated and configured phones to communicate with each 
other. We are now working with F4W on software that will allow 
any ``smart'' cell phone to make encrypted calls and send and 
receive text messages and data over the internet if the phone 
has the right application installed. We can do this with or 
without cellular infrastructure.
    We are also working on the issue of persistent identity. 
Within a few months, F4W expects to deliver a software package 
that will allow people, not equipment, to determine access to 
their emergency communications system. In other words, an 
authorized emergency responder will be able to go to any 
terminal or use any smartphone device and, using their preset 
password or a device that identifies them, log in to any 
network and conduct safe, fully-encrypted voice communications 
and data sharing with others in their group.
    In addition to improving our internal communications 
capabilities and processes, we are working to expand and 
enhance our ability to communicate with volunteer and 
nongovernmental organizations, particularly as it relates to 
credentialing of representatives of such organizations who have 
critical interaction with our emergency response and recovery 
efforts. At present, these organizations issue their own ID 
cards, and our agency has no way of verifying those 
credentials. There is a clear need to link their systems with 
ours, for us to have some input into how their credentials are 
created and the information that is provided on those 
credentials.
    Prior to the April 27 storms, I had been working on 
development of such a system, utilizing a universal information 
format that would allow us, along with appropriate State and 
Federal agencies, to read and obtain information from cards 
issued by NGOs. Moreover, this system can be implemented at 
relatively low cost, utilizing existing bar code technology.
    By way of further explanation, let me provide a little 
background. After September 11, 2001, the Bush administration 
issued Homeland Security Presidential Directive 12, the purpose 
of which was to develop a common identification standard while 
still ensuring that Government facilities and sensitive 
information remain optimally protected.
    Mr. Bilirakis. Excuse me, can you wrap up in the next 30 
seconds, please? The testimony is submitted for the record as 
well.
    Mr. Kniphfer. Okay.
    The cost of issuing the ID cards would have been $140 per 
card. We got it at no money for us. We worked in those cards 
that way.
    As previously stated, we incorporated FEMA's integrated 
processing efforts in our system, and each of these potential 
advances will help the Jefferson County Emergency Management 
Agency meet our responsibilities.
    As we go forward in working with these systems, as we go 
forth on activities, we support everybody's work. We look 
forward to working with everybody and thank you again for the 
opportunity to testify and look forward to your questions, sir.
    [The statement of Mr. Kniphfer follows:]

                Prepared Statement of Allen W. Kniphfer
                              July 8, 2011

    Mr. Chairman and Members of the subcommittee: Good morning. On 
behalf of the 665,000 residents of Jefferson County, Alabama, thank you 
for this opportunity to testify today.
    On April 27, 2011, our county, which is the most populous in 
Alabama, was struck by four tornadoes in a single day, destroying or 
heavily damaging nearly 5,000 homes and businesses and displacing 
thousands of residents. The cost of cleaning up the rubble alone will 
approach $260 million, while total property damage is estimated at $1 
billion.
    Our response to and recovery from this natural disaster has 
reinforced a lesson we already had learned from hard experience: That 
every emergency occurs at the local level. With this in mind, local 
officials must be prepared to respond quickly and effectively--
especially in the initial phase of a disaster--before our State and 
Federal Governments provide supplemental assistance.
    My office, the Jefferson County Emergency Management Agency, is 
responsible for ensuring that the citizens of our county are prepared 
to respond to, and quickly recover from, any emergency or disaster that 
confronts us. As a result of our preparations, we were ready to fulfill 
that mission when the April tornadoes hit.
    The single most important aspect of any disaster recovery effort is 
the ability to communicate. Communication is not simply the ability to 
speak to others, but also the ability to transfer data. By way of 
example, our neighbors in Tuscaloosa County had their Emergency 
Operations Center completely destroyed by an EF5 tornado on April 27, 
less than an hour before the same storm struck Jefferson County. All of 
the assets they owned for use in a disaster were destroyed. Cell phone 
towers were damaged, internet access was minimal, many roads were 
impassable, and communication was virtually non-existent. Tuscaloosa 
County's emergency responders found it difficult to communicate with 
each other, and with the outside world.
    We were more fortunate in Jefferson County. Our Emergency 
Operations Center survived the storm intact. What we were not prepared 
for was the enormous amount of inbound phone traffic that overwhelmed 
our telephone system and made outbound calling difficult. But we had a 
unique asset: A Mobile Communications Unit that gave our emergency 
management team immediate, full-time phone and internet service.
    This Mobile Communications Unit--developed and built, Mr. Chairman, 
by a small business called F4W, Inc. in your home State of Florida--was 
a lifesaver for the people of Jefferson County. It was up and running 
even before the tornadoes struck, providing fixed and mobile 
communications to our emergency responders throughout the entire 
recovery process.
    Because we had the ability to communicate, we could execute our 
emergency operations plan immediately. Our first responders knew 
quickly what to do and where to go, and we were able to help our 
citizens to begin recovering from this terrible disaster quickly and 
efficiently.
    In addition, we were able to increase our communication 
capabilities throughout the recovery process, to meet needs we had not 
previously anticipated. Because county residents had no access to cell 
phones or the internet for a considerable period of time, we 
established Telecommunication Registration Centers throughout the 
county, giving residents the means and opportunity to make phone calls 
and report damage to the Federal Emergency Management Agency via the 
internet. To fulfill this need, we rented additional Mobile 
Communications Units from F4W.
    In our Emergency Operation Center, we further expanded our 
abilities by installing, ``on-the-fly,'' a private branch exchange 
system that mirrored our fixed wire telephone system--enabling our 
responders to speak to each other by dialing a four-digit extension 
code, no matter what unit supported their communications. They were 
also able to text-message, electronically chat, and e-mail each other 
seamlessly. Today, this provides us with a redundant system in the 
event our primary system is off-line for any reason. The back-up system 
kicks on and we never miss a step. Once again, this was provided for us 
by F4W.
    When we learned that Tuscaloosa County's emergency response team 
assets were destroyed along with their primary headquarters, we 
dispatched our Mobile Emergency Management Trailers there. With that 
support, their emergency management infrastructure was back on-line 
less than 36 hours after the storm hit. Again, the communication 
equipment we used to support Tuscaloosa were products we have purchased 
from F4W over the past several years.
    Now that the emergency phase of the April 27 disaster has mostly 
passed, I am focused on continuing to enhance our ability to respond 
with optimal efficiency and speed, regardless of the situation. My 
organization embraces the standards established and administered by 
various Federal Agencies, including SAFECOM, the National Emergency 
Communication Plan, the National Emergency Response Interoperability 
Framework and the Resilient Communication System of Systems published 
under the DHS SECURE Program. We also support CAP, HIPAA, IPAWS, OASIS, 
and Sarbanes-Oxley.
    As emergency responders, we embrace the new standards and 
technology developed from those protocols. But regardless of these 
standards and new discoveries, I must, above all, perform the 
requirements of my position to serve the citizens of my county to the 
best of my ability. Our organization realizes that we cannot wait for 
decisions to be made in Washington when our people need protection of 
their lives and property in the immediate term.
    The Emergency Broadcast Network, which has existed for decades, did 
save lives during our recent emergency. But I believe, in my county, 
that I require a more effective approach to alerting the general 
public, one that is meets OUR requirements--and one that we can afford. 
In that effort, budget cuts to Federal programs make no difference in 
our organization, because, whatever happens, we will find a way to 
acquire and implement the tools necessary to support our citizens--and, 
when we can, our neighbors as well.
    Another way of putting it is that although budgets have shrunk, our 
responsibilities to our citizens have not. Disasters are going to 
continue to occur regardless of how much or how little resources are 
available to us. To the extent that adequate funding continues to be a 
challenge, we will continue to substitute innovation, longer work hours 
and complete dedication to our life-saving jobs.
    Having said that, I would add that yes, cutting Federal grant funds 
to supplement the infrastructure of alert warning systems could impact 
many communities. But in considering that, we should also take the 
opportunity to ask how effectively those funds have been spent to date. 
In my view, it might make more sense, practically and financially, to 
target grant funds for regional projects that take into consideration 
the specific needs of affected communities, as opposed to using grant 
funding as leverage for imposing uniform standards that leave some 
critical needs on the local level unmet. This approach would allow 
committees such as this one to see first-hand how taxpayer dollars are 
spent and the results of successful implementations--as well as 
learning from failures.
    Here's how we are investing in our future in Jefferson County: Our 
current system requires us to use specially designated and configured 
phones to communicate with each other. We are now working with F4W on 
software that will allow any ``smart'' cell phone to make encrypted 
calls and send and receive text messages and data over the internet if 
the phone has the right application installed. We can do this with or 
without cellular infrastructure.
    We also are working on the issue of persistent identity. Within a 
few months, F4W expects to deliver a software package that will allow 
people, not equipment, to determine access to their emergency 
communications system. In other words, an authorized emergency 
responder will be able to go to any terminal or use any smartphone 
device and--using their preset password or a device that identifies 
them--log in to any network and conduct safe, fully-encrypted, voice 
communications, and data-sharing with others in their group.
    In addition to improving our internal communications capabilities 
and processes, we are working to expand and enhance our ability to 
communicate with volunteer and non-governmental organizations--
particularly as it relates to credentialing of representatives of such 
organizations who have critical interaction with our emergency response 
and recovery efforts. At present, these organizations issue their own 
ID cards, and our agency has no way of verifying those credentials. 
There is a clear need to link their systems with ours--for us to have 
some input into how their credentials are created and the information 
that is provided on those credentials.
    Prior to the April 27 storms, I had been working on development of 
such a system, utilizing a universal information format that would 
allow us, along with appropriate State and Federal agencies, to read 
and obtain information from cards issued by NGOs. Moreover, this system 
can be implemented at relatively low cost, utilizing existing bar-code 
technology.
    By way of further explanation, let me provide a little background: 
After September 11, 2001, the Bush administration issued Homeland 
Security Presidential Directive 12 (HSPD-12), the purpose of which was 
to develop a common identification standard while still ensuring that 
Government facilities and sensitive information remain optimally 
protected. The directive required agencies to issue ``smart'' cards to 
Federal employees and contractors--a goal that was good in concept, but 
which proved difficult to implement beyond the Federal level, largely 
due to the cost involved.
    The cost of issuing the ID cards mandated by HSPD-12 proved to be 
in excess of $140 per card. The Federal Government was footing the bill 
for these, so few people complained, other than some contractors who 
had to buy their own cards in order to do their jobs. In response, in 
May 2009, the Federal Chief Information Officers Council issued a 
supplement to HSPD-12, titled ``Personal Identity Verification 
Interoperability for Non-Federal Issuers.'' This put the States into 
the Federally-compatible ID card business, with responsibility for 
providing first-responder authentication credentials (FRACs) that 
Federal agencies can read and honor.
    But still, the cost issue remains a substantial hurdle to 
implementation. To have true interoperability as specified in the 2009 
directive, the non-Federal cards were still required to incorporate a 
microchip with a format and security features approved by the Federal 
Government. This chip was only approved for use in February 2011, with 
the cost per card remaining roughly the same--in other words, 
prohibitively expensive for State governments, like ours in Alabama, 
operating under tight budgetary constraints. As coordinator of a county 
EMA, I have to struggle to find enough money for necessities, let alone 
funding the additional expense of Federally-interoperable ID cards.
    So what did we do?
    Working with ID card experts, I and others who work on the front 
lines of public safety and emergency management began developing an 
affordable FRAC system for State use. This system not only meets, but 
exceeds the standards set forth in the May 2009 directive. The card I 
wear each day contains my biometric data, my training certifications, 
and my medical information. It works with or without a network in 
place. It does not have a microchip--the single most expensive element 
in the Federally-issued cards--yet it is FIPS-201 compliant in every 
important way. It can even communicate with Federal systems for 
identity verification with a network system that links all emergency 
management agencies in every State of the Union. We call it NERVS, 
which stands for National Emergency Responder Verification System.
    Perhaps most notably, NERVS does not cost so much that it is 
unaffordable to cash-strapped State and county governments. And it was 
developed without a dime of Federal money. This show what can be 
accomplished through innovation and dedication to task. It has already 
been deployed in the State of Florida, and we are using it now in 
Alabama. It is worth noting that the use of this system in Florida 
began under Craig Fugate, before he became the head of the Federal 
Emergency Management Agency. In my opinion, his openness to and embrace 
of such innovative approaches to critical issues is a big reason he was 
appointed to his current position.
    In working to develop and implement such approaches, F4W, others, 
and we are mindful of the standards established in Federal Information 
Processing Standard Publication 201 on Personal Identity Verification 
Standards for Federal employees and contractors. All of the work we do 
together will meet those standards.
    As stated previously we incorporate FEMA's Integrated Public Alert 
Warning System, or IPAWS, efforts. The mission of IPAWS is to provide 
integrated services and capabilities to local, State, and Federal 
authorities that enable them to alert and warn their respective 
communities via multiple communications methods. To help extend this 
technology to achieve the ultimate end solution meeting our needs not 
defined in the standard published, F4W's engineers and ID software 
engineers are working on creating a ``System of Systems,'' whereby 
Voice Over Internet Protocols will enable any emergency responder, 
using any commercially-available emergency communication system--not 
only F4W's--to speak and exchange data with those using all other 
communications systems. If they succeed, it will be a remarkable 
accomplishment for a small business with very limited research and 
development capabilities.
    Each of these potential advances will help the Jefferson County 
Emergency Management Agency better meet our responsibilities to our 
citizens. We are also increasing disaster awareness among our 
residents; continuing to train our emergency responders to meet any 
possible contingency; educating our residents, including our children 
on, what to do if disaster strikes--our next ``Community Awareness 
Day'' is scheduled for October 6 of this year--and offering even more 
resources to our population and our first responders through the 
internet and elsewhere.
    Through these activities and others, we hope to make Jefferson 
County a model for the entire Nation in preparing for emergencies and 
disasters, mitigating them, responding to them, and recovering from 
them. Thank you again for this opportunity to testify. I look forward 
to your questions.

    Mr. Bilirakis. Thank you very much, sir.
    I would like to recognize myself for 5 minutes or so. The 
first question will be for Ms. Goucher.
    Ms. Goucher, you testified that broadcasters must replace 
their own EAS equipment at their own expense in order to 
implement the Common Alerting Protocol, CAP, by September 30, 
2011. That is the deadline. Can you help us understand the 
financial and logistical challenges that a typical broadcast 
station faces in complying with this mandate?
    Ms. Goucher. Certainly. As I mentioned, the cost of the 
CAP-enabled boxes is somewhere upwards of $2,000 to $3,000. For 
many broadcasters, that is just a cost of doing business. They 
budgeted for it. They have known it was coming. For some of my 
smaller broadcasters, that is going to be a high hurdle for 
them to overcome. I have got some small stand-alone stations, 
some religious stations, some college stations that don't 
exactly have $3,000 lying around not doing anything. My 
association is looking at creative ways to help them fund those 
purchases, and in the end they will all make the purchases 
because, as I mentioned, not only is it a mandate but it is 
core to our mission.
    But we are also looking at some creative ways to fund the 
State piece of our Emergency Alert System. The State coffers 
are bare. In the State of Maine, we have had three rounds of 
budget-cutting in the past 6 months, and every time I go in to 
talk to my emergency management and public folks about this and 
say we are moving to this new CAP-enabled system and you need 
to buy some equipment in order to get on board with it, I get 
that deer-in-the-headlights look, like how much is this going 
to cost and where are we going to get the money.
    We think in that regard that it would be most helpful if 
FEMA could specify in their grant guidance that EAS is a 
permissible use of grant funds. That would put it on the radar 
screen for these officials when they are applying for the grant 
money to specify that this is an acceptable use of that money. 
When those dollars come in the door, they are spent four or 
five or six times, but if it were in the grant guidance, it 
would put the States on notice that they could apply for the 
funds for this specific purpose.
    Mr. Bilirakis. Thank you very much.
    My next question is for Mr. Guttman-McCabe.
    Recently, the Personal Localized Alert Network, PLAN, was 
unveiled in New York City. This new public safety program is to 
be initialized. Of course, it is to be deployed in New York 
City and Washington, DC, by November, with Nation-wide 
deployment in all major urban areas being completed by the 
spring of 2012. It seems that the majority of the cellular 
carriers have embraced the concept of the PLAN, which is great.
    Can you please go into more detail of the impact of 
implementing PLAN on the wireless industry and why the name 
change? What is the purpose for the name change? Because it 
seems like it is very confusing.
    Mr. Guttman-McCabe. Sir, I will start with your last 
question first, Mr. Chairman.
    I don't know the reason for the name change, to be honest. 
It didn't come from our side of the equation. I think the FCC 
was trying to come up with something that they thought was 
easier to comprehend or to understand and to promote, is my 
understanding.
    As Admiral Barnett suggested, we had already gone down the 
path of trying to come up with a way to promote handsets that 
are capable of delivering alerts, and we reached out to our 
internal marketing department and we came up with something 
called Wireless Emergency Alert Capable. So, again, it wasn't 
sort of rocket science. We just tried to find a way that would 
convey a meaning. I think at the FCC that was happening 
simultaneously, and they came up with the acronym PLAN.
    As long as there is an effort by the FCC, by FEMA, and by 
the industry to make sure consumers understand, I think we can 
bridge that gap of confusion that you and others suggest may 
exist. Our goal is to make sure that consumers are aware when 
the capability exists and which handsets have it, with the goal 
of having all handsets ultimately have the capability as they 
move through the production cycle.
    You asked previously about the impact on the industry. This 
is something that we brought to--Steve Largent, my CEO, brought 
to my executive committee many years ago; and we embraced, 
knowing there would be some significant cost to it. But, like 
Ms. Goucher said, we recognize that this is something that is 
the right thing to do, to embrace this technology. So our 
industry is committed to it.
    There were questions presented to the earlier panel about 
why yet hasn't there been 100 percent. I am actually very proud 
of the 97 percent that are represented. But one thing for the 
record that should be recognized is that carriers had to make a 
decision as to whether or not to participate voluntarily before 
there was any idea of what the technology solution would be. 
That was just one of the byproducts of the WARN Act. It was 
just an outgrowth of the timing. So nine of our ten largest 
carriers and a significant number of our smaller carriers 
immediately went on-board and said yes, but they didn't really 
know what they were saying yes to at that time. That is why we 
expect the number will go up, because now there is a greater 
understanding of what people were saying yes to.
    You had asked Ms. Goucher about the cost. I think our 
smaller carriers will enjoy the benefits of the economies that 
are driven by the larger carriers purchasing the technology and 
moving the handsets through the process.
    So it is costly. It is significant, significant expense. 
But yet it is one that the industry is bearing with a good 
social responsibility that they have done many times. Whether 
it is this or Wireless Priority Service or wireless AMBER 
Alerts, it is something that the industry and particularly the 
leadership of these companies really recognizes is important.
    Mr. Bilirakis. Is there an effort by the industry to 
educate people, the potential customers, with regard to the 
privacy issue?
    Mr. Guttman-McCabe. There will be an effort by the industry 
to alert consumers once the technology is up and running. The 
privacy issue I guess we are going to have to make people aware 
of. But it is not a concern from our perspective for the 
reasons that Admiral Barnett suggested, which is this is a 
broadcast-type technology, so the alert will be sent to a 
certain number of cell towers and in essence broadcast out sort 
of in concentric circles, and whichever devices are within that 
circle will get the alert.
    The carriers won't be measuring who gets it or who doesn't 
get it. It is a whole new technology really for our industry, 
and it is not designed to say X or Y handsets are in this area. 
It is just to say any handsets that are in the alerting area 
will get it. There is not going to be tracking of who gets it 
and who doesn't.
    Additionally, the wireless industry is subject to a range 
of rules regarding privacy that are sort of overarching, beyond 
just this WARN emergency alert effort. So those would still 
hold, sort of protecting the privacy of the consumers.
    Mr. Bilirakis. I think it is great. It is wonderful. But 
the thing is we have to get the word out and educate the 
people. It is so important to save the lives.
    Mr. Kniphfer, last month, this subcommittee held a field 
hearing where we heard from emergency management officials from 
around the country. Actually, in my district we had the field 
hearing. When asked about the upcoming deployment of PLAN, the 
officials were supportive of this system because it will help 
reach them reach commuter and tourist populations in a way that 
reverse 
9-1-1 systems cannot. You heard the story. It took 7 days in 
that particular community to notify them with the reverse 9-1-
1. That is simply unacceptable, as far as I am concerned.
    I am interested in your thoughts on the deployment of the 
cell phone alerting system. What information have you received 
from FEMA about this system? Do you believe that this system 
will help to enhance your ability to alert and warn citizens in 
your area?
    Mr. Kniphfer. Sir, anything that will enhance the alerting 
of people in time of emergency is going to help us. My worry is 
what people do after we alert them. Will they take that alert 
seriously, that educational process on the tourists? That is my 
concern afterwards.
    Those people in my area and yours in Florida, a lot of 
people come to Florida and don't know what county they are in, 
and we alert them through a cell phone that if you are in Lee 
County, Florida, or Lake County, Florida, or Jasper or Gadsden 
County, Florida, they are not sure what county they really are 
in. So we have an educational problem, too, that goes along 
with that. Do they know where to go to their place of safety? 
That is an educational process that is going to have to go 
along with that alert system. Do they heed that warning?
    After Katrina, I heard a lot of people talk that we 
survived a Cat-5 hurricane. There is nothing worse. When 
Katrina came on shore, it was not a Cat-5. So that is my 
situation.
    Anything that is going to help us get an alert to the 
people is going to help us, and that is my concern: How do we 
get to everybody? As we move forward and as technology takes 
over, we have kids now that don't read emails anymore. They 
text and that is all they get on their cell phones. They don't 
even read emails. So that is what we have got to go to as a 
society, how do we get to them, and that is what we have to 
look at now.
    Mr. Bilirakis. Very good. Thank you.
    Mr. Guttman-McCabe, you talked a little bit about what is 
necessary and what is unnecessary as far as warnings and 
alerts. Elaborate on that.
    Mr. Guttman-McCabe. Certainly. I think I want to clarify 
that this is not an indictment of FEMA, because I think they 
have really aggressively tried to go out and provide education 
to the alerters. But at least from my perspective, and it may 
be similar from Ms. Goucher's, I am looking at the alert tools 
that are out there now, the alerting tools that exist now, 
including the county that I live in, which is right across the 
river but I won't say which it is because I am about to say 
something potentially negative. But I have a small sort of 
phone book here of alerts that I have received over the last 2 
years, and I will give you a few examples of some of the 
alerts.
    I was alerted to the existence of ``a rapid fox.'' Not a 
rabid fox, but a rapid fox. I was alerted to the fact that 
there were going to be flyovers, that there was a cable outage, 
that there was going to be buildings demolished, that it was 
cold and flu season. I could go on and on, and these are all in 
here.
    To Mr. Kniphfer's point, he is concerned about what they 
will do and will they take it seriously. Our concern is you can 
build the greatest system and if you overuse it you get 
immediately to what we call the car alarm syndrome. Nobody pays 
attention to car alarms any more.
    So when I look at sort of what has come out of this 
alerting system, I think the last thing we want to do if we 
build this is pepper it with alerts that aren't necessary and 
then people just stop paying attention. The reality is, 
unfortunately, I have fallen into that camp. So when a serious 
one comes out, my wife sort of resends it to me to make sure. 
Because if you went through this list you would find maybe 3 
percent that were really an emergency alert, and that can't be 
the case if we want to deploy this Nation-wide and we want 
people to really take advantage of it and take advantage of the 
ubiquity of mobile devices.
    Mr. Bilirakis. Would you define, say, a storm, a major 
thunderstorm, a necessary alert? Or a major accident, what have 
you?
    Mr. Guttman-McCabe. I understand, and I completely 
recognize that there is going to be a cutoff point that is 
difficult to determine, and some alerts may fall on one side or 
the other. But what NOAA generally does and the National 
Weather Service, that completely makes sense. Those are alerts 
that people should get, even though I know they have tiers of 
warnings and then watches and things like that. But I also 
think there are probably a significant percentage that you can 
cut off.
    An accident, I would say no, unless there are noxious fumes 
or gasses or dangers. Anything involving traffic I would argue 
no. This is me speaking personally. Buildings being demolished 
or cold and flu season, that to me is really abusing the system 
or using the system in a way that isn't going to support when 
you really want people to respond to a very timely tornado, a 
significant tornado where you only have minutes to respond, or 
a tsunami.
    You want people looking at these things every time they pop 
up in case they are getting one that is that timely, and you 
want to make sure that you don't overuse it such that people 
stop paying attention.
    Mr. Bilirakis. Thank you very much. They need to take it 
seriously. There is no question.
    This is for Ms. Goucher. In your statement you note your 
belief of the need of a National EAS working group and you 
mentioned that and maybe you can elaborate. If such working 
group were created, who do you believe should be members of the 
group?
    Ms. Goucher. Well, as I mentioned, there are several 
Federal agencies that have governance authority for the 
system--the Federal Communications Commission, FEMA, the 
National Weather Service, the White House. There are also 
several EAS participants, broadcasters, obviously, the cable 
television industry, now the cellular telephone industry.
    We just don't have a forum to get us all together in a room 
on a periodic basis to hash out issues with the system. So we 
think that some kind of formal structure for that process to 
take place would be enormously helpful.
    As long as I have the microphone, Mr. Chairman, if I may, I 
would like to address the issue that----
    Mr. Bilirakis. Absolutely. Proceed.
    Ms. Goucher [continuing]. That my friend to the left here 
raised by about the education issue.
    I do want to state for the record that broadcasters are not 
asking for a mandate for FM chips in cell phones, but we do 
think there is an enormous marketing opportunity here that is 
being lost because we all carry these devices around with us 
all the time. So if you receive a 90-character text message 
that says ``tornado warning, Lincoln County, tune to local 
radio and TV,'' wouldn't it make sense to be able to do that 
right from the same device? So that now you have an all-in-one 
mechanism in the palm of your hand to get not only the initial 
alert, where it is and what it is, but the actual follow-on 
information that you need, tornado warning, is it my house, 
when is it touching down, how long do I have to grab Toto and 
get into the cellar?
    Broadcasters can put that information in front of people. 
``Here are the evacuation routes.'' If I were Verizon or AT&T, 
I would be all over this, to say, look, here is an all-in-one 
device for you that will give you not only the initial alert 
but also the follow-on information you need. Again, not a 
mandate, but a little encouragement.
    Mr. Bilirakis. Do you want to comment on that?
    Mr. Guttman-McCabe. Certainly, if I may. There are 41 
handsets in the United States that have FM chip sets. As we 
went through the process with the SimSac, the advisory group, 
we considered sort of what different potential solutions would 
be, and we had a similar request from the television broadcast 
industry to put a television chip and we had a request from the 
paging industry to put a paging chip and the satellite industry 
to put a satellite chip.
    What we were looking at as an industry is let's not have a 
technology mandate. Let's let consumers decide what they want 
in their devices and give them options. Having a choice of 41 
different handsets, if that is what you choose, I think that is 
a fair number of options.
    We look at it, we are serving a wide range of consumers, 
everything from a standard flip phone to a smartphone to a 
tablet, and we try to make everyone happy. That is why there 
are a range of options and handsets and different price points. 
That is how we look at it.
    NAB has moved away are from the desire to have a mandate. I 
think that is a good thing. We talked with them maybe 2 years 
ago about this, and in that interim you have gone from a few 
handsets to 41. I think that is an evolution based on what 
consumers want.
    Mr. Bilirakis. Mr. Guttman-McCabe again, with regard to 
CMS, PLAN, are you satisfied with the progress that is being 
made in regard to that and are there any improvements that can 
be made?
    Mr. Guttman-McCabe. I think we are very satisfied. The FCC 
and FEMA have been extremely active under Admiral Barnett and 
Administrator Penn and their teams. We met with them last week. 
We have about monthly meetings, maybe 20 or 30 of us in a room, 
and we will have monthly meetings from now until the launch in 
New York and the beginning of next year and are very happy with 
how they are moving forward.
    I do have to say FEMA in the last year or 2 years really 
has accelerated the process and their efforts. So I do think 
they are to be applauded for how much they have really focused 
on this.
    So we don't have any issues right now with how it is moving 
forward. It is in our devices and being deployed in our 
devices. Networks are being upgraded with the technology. So 
this is a private-public partnership that we want to really 
hold up as one that is working and has worked.
    Mr. Bilirakis. Good. Excellent.
    Mr. Kniphfer, as you know, in November, FEMA and FCC will 
conduct the first-ever Nation-wide test for EAS. How is 
Jefferson County preparing for this test?
    Mr. Kniphfer. We will be ready for it, sir. We had 
equipment ready to do that. We are ready to go down to the 
level to put it out with our broadcasters. That is one of the 
things we are working with the broadcasters.
    I think if you go back to April 27, if it had not been for 
our media, we would have lost a lot more lives. Like Ms. 
Goucher said, our media that day were outstanding. Our radio-TV 
were on the air 24/7 covering the tornadoes, and had it not 
been for them, there would have more bodies that we would be 
counting today. They were a vital part of the alert warning 
system.
    Any device you carry is only as good as the system as a 
whole. You have got to know what to do. Our four TV stations 
worked very good together that day in putting out the 
information. They tracked the storms coming out of Tuscaloosa 
County right through, and I think the people heeded the 
warning. Tuscaloosa County had a high death rate I think 
because they were hit quickly. Jefferson County saw it come 
through Tuscaloosa County and took the warning seriously and 
took shelter, and we only had 21 deaths because of that.
    I would also like to address the concern of the wireless 
industry and the amount of notifications you get. We need to 
look at that situation as an alert warning notification system 
where people can opt into what is that. If you want a alerts, 
then you get emergency alerts. If you want warnings, you get 
warnings. If you want community notifications of events, then 
that is notifications of such things as buildings being torn 
down, roads, and detours.
    You have to design the system. Some people want to know 
about every red light that is going to be tore down today, 
every street that is going to be blocked or anything. There is 
just news people out there wanting news information. They want 
to know what is going on all over town. Others just want to 
know if there is a storm in the area that is going to tear my 
house down, tell me. Don't bother me with anything else. So 
those people want to be alerted strictly to that type of 
information.
    So there is things you can do to regulate what kind of 
information you send to people, and you can break it down to 
alert, warning, notification. Usually, these are what we write 
down. This is what we are going to put out for alert. If you 
have an abducted child, that is primary to me as an alert. 
Let's get that out as quick as anything. If we are going to be 
demolishing a building, then that is notification for people in 
an area that doesn't bother a lot of other people. So if you 
want that kind of notification, you opt into that stuff and not 
just the AMBER Alert.
    Mr. Bilirakis. Thank you.
    Actually, bringing up AMBER Alert, Ms. Goucher, would you 
provide the subcommittee with a better sense of the impact that 
local, even in general, local broadcasters have had in saving 
the lives of children through AMBER Alert?
    Then I want to ask you about Silver Alert, too. Are you 
familiar with Silver Alert as well? If you can talk about that, 
too, define Silver Alert. I can define it, but you will 
probably do a better job.
    Ms. Goucher. Sure. I will do both. I will do all the colors 
of alert.
    Mr. Bilirakis. Okay, good.
    Ms. Goucher. As I am sure you know, Mr. Chairman, the AMBER 
Alert program arose out of a terribly tragic situation in the 
Dallas-Fort Worth area where a young child named Amber Hagerman 
was abducted and murdered. The broadcasters in that area got 
together and went to local law enforcement and said, look, we 
have a tool that you can use to help prevent these situations. 
We can put the eyes and ears of everyone on the street at your 
disposal to try and find the vehicle, the abductor, the child. 
We have this Emergency Alert System. Why don't you use it?
    So they developed the first AMBER Alert system. My dear 
friend, the late Carl Smith of the Oklahoma Broadcasters 
Association, was the first one to do a State-wide AMBER Alert 
program. The other State broadcast associations piggybacked on 
that, took the program, brought it home to our own States and 
developed it from there to the point where we now have AMBER 
Alert programs in all 50 States and the District of Columbia. 
It is not hubris on my part to say that we have an AMBER Alert 
program in Maine because of me.
    We are now moving into Silver Alerts. Numerous States are 
bringing that idea forward. That is where we have an impaired 
adult, someone who doesn't necessarily meet the criteria for an 
AMBER Alert, which is an abducted child under age 18, generally 
for people who suffer from Alzheimer's disease or dementia who 
may wander away and be lost for a period of time. So, again, 
the media are stepping up to work with law enforcement to be 
able to get the word out quickly about these situations.
    We passed a Silver Alert program in Maine last year. We had 
one just last week. Luckily, the woman was found safely after 
about a day and a half, but only because you put people's eyes 
and ears out there on the street to help in the search, to help 
in identifying what is going on and report back to law 
enforcement.
    Mr. Bilirakis. It has been very successful, as far as I am 
concerned. I know it has been in my State of Florida.
    Mr. Kniphfer, you wanted to comment as well on maybe Silver 
Alert or AMBER Alert?
    Mr. Kniphfer. Those two items right there we are working 
very closely with law enforcement and with the elderly people 
putting those notices out very quickly in the broadcast world. 
It has helped us on two occasions already find our elderly that 
have come up missing. We have a couple of people that keep 
walking off from nursing homes that way, and they have come 
very close to getting those where we don't have people we find 
later on in the wrong way. So that has helped us a lot with our 
broadcasts, getting the message out to people to locate those 
type of people.
    That is the kind of things that we need. That is what I 
call a really quick alert to me, is get that information out 
quickly and get it back so we can find it.
    If we can get that alert out to the people, they can get it 
on their devices, they can see pictures of the car or pictures 
of a kid that has been abducted. As quick as we can get a 
picture out there on a cell phone device, they can see what it 
looks like, a tag, a partial tag, they can get that information 
back to 9-1-1, to the dispatch centers, to law enforcement. We 
can capture that individual a lot quicker and possibly save 
lives. It is going to save a lot more lives.
    Mr. Bilirakis. Anyone want to comment on the next 
generation of 9-1-1?
    I have actually finished with my questions. I went way over 
my time. I want to give you an opportunity to say anything you 
would like on this subject matter. Anyone on the panel?
    Mr. Kniphfer. They said earlier we are doing a lot of 
things with video teleconferencing and getting pictures back 
from the field where we can actually transmit pictures back 
using these cell phone devices, wireless devices back, so we 
are moving toward holding video teleconferencing back with 
wireless devices with our people, responders in the field. It 
is going to be greatly enhanced, that we can actually 
communicate your command-and-control with video 
teleconferencing back from the operations center to the field 
commanders in the field.
    Things we are doing with the tablets now, with GIS and 
everything else, we are actually doing damage assessment a lot 
quicker. We can go out and take pictures of houses and do 
damage assessment real quick real-time now. We just did, thanks 
to the Federal Government in Operation Clean Sweep, cleaned 
property and debris removed quickly. In the State of Alabama 
after Katrina that was such a problem. We just now cleaned up a 
lot of the State of Alabama that way. We are trying to get an 
extension through for FEMA for 60 more days to go right of 
entry on property.
    The wireless technology we are using now can go along with 
the integrated process of a warning system, and integrating all 
these systems together is going to allow us to pass data and 
information, to get the information up to FEMA headquarters and 
to the President and quicker declare emergencies and disasters. 
We provide that information quicker and easier so we can 
actually show that response time, that disaster information 
that the President needs to see to declare disasters quicker.
    Mr. Bilirakis. Very good.
    Ms. Goucher.
    Ms. Goucher. Thank you, Mr. Chairman.
    I want to echo Mr. Guttman-McCabe's comments about FEMA. 
They have come a tremendously long way in the last couple of 
years toward fulfilling Presidential Order 14307--my memory 
escapes me.
    I have been at this a long time, and there was a period of 
time about 5 or 6 years ago where FEMA and the FCC weren't even 
talking to each other about these issues. At least now they are 
getting in the same room and working together to move this 
forward.
    We are tremendously excited about IPAWS and the new CAP-
enhanced EAS. That is going to give us so many more 
capabilities for enhanced messaging. A picture of the abducted 
child can be embedded in a CAP EAS alert. Now, that saves two 
or three steps on the part of law enforcement. You can just 
send out one message with all the information you need, the 
evacuation map, the route where the chemical cloud is blowing. 
So we are greatly looking forward to the rollout of this 
system, because it is going to enhance our own news 
dissemination capabilities.
    I think it is interesting, however, that we have seen the 
good and the bad in alerting here with a jurisdiction that 
truly knows how to use the system and use it wisely versus one 
where we have feral foxes--what was it--``rapid foxes.''
    That takes us right back to the issue of training. We need 
to get down to the granular level with not just the State 
folks, but police, fire, EMTs, all the emergency responders.
    If my counterpart from Texas were here today, Ann Arnold 
from the Texas Association of Broadcasters, she would tell you 
an absolutely heartbreaking story about some wildfires in West 
Texas a few years ago. The local fire marshal sent his people 
up and down the roads with bullhorns to tell the people the 
fire was coming, evacuate, the fire is coming, evacuate, 
because they couldn't think of any other way to get the word 
out. There were two elderly ladies who lived down a half-mile 
dirt road that didn't hear the bullhorns and died in the fire.
    They were soap opera fans. They were watching TV at the 
time. So Ann Arnold called the fire marshal the next day and 
said, why didn't you fire off an EAS alert? They would have 
seen it on TV. His response was, what is EAS?
    That to us is unacceptable. You know, this system has been 
around in one form or another for 60 years. It should be in the 
DNA of emergency responders to think of using this system--not 
overusing it but using at times like that.
    I wind up going around the State providing training 
because, to date, there has been nothing else. The only 
training emergency senders, alert senders receive is the 
technical manual that comes with their encoder-decoder. There 
has been nothing else.
    So, to reiterate some of my oral testimony, we are very 
excited that FEMA is actually undertaking the development of 
this training program, but all it will wind up doing is 
certifying that you can send a message through the Federal 
aggregator. If you are not inclined to send an EAS message in 
the first place, that is not going to matter to you. So we need 
some kind of a carrot and stick to bring these folks to the 
table, to make them recognize this tool is at their disposal. 
We will put our airwaves and transmitter at your disposal. 
Please use them. This is what the system is for. Just use it 
wisely.
    Mr. Bilirakis. Thank you very much.
    Mr. Guttman-McCabe, anything further?
    Mr. Guttman-McCabe. I guess, in conclusion, Mr. Chairman, I 
would just say I was in front of this committee several years 
ago before the legislation was enacted; and the future that I 
envisioned is happening. To me, that is a testament to 
Government reaching out to industry, private industry, and 
working in a collaborative fashion.
    We had 17 different organizations representing the wireless 
industry on the committee that developed the standards. There 
was a full commitment. If you look at that and you look at 
wireless AMBER Alerts, which picked up on the great work by the 
broadcasters and Wireless Priority Service, these are all 
voluntary efforts that the industry can really get behind and 
feel good about.
    The same is true to a large extent about next-generation 9-
1-1. The industry realizes that 9-1-1 needs to continue to 
evolve. It has evolved multiple times since I have been at CTIA 
over the last 10 years. But is a process. It takes a while to 
standardize and then move it into the technology and then 
deploy it.
    So we agree with some of the statements that some of the 
subcommittee members made about the need to able to text to 
9-1-1 and things like that. Yet it is not as simple as saying 
tomorrow you can text. My most recent alert, which was a text-
based alert, and CMAS or PLAN or wireless emergency alerts, 
they will come as a text, but they are not text-based. They are 
not an SMS or a text. They are a broadcast service.
    But my most recent text alert from my local county was 
``fternoon.'' It took me a little while to figure out what 
``fternoon'' was. It took my 11-year-old 2 seconds. She said, 
Dad, it is ``afternoon'' minus the ``A.'' Well, that was the 
only thing I received from them. I didn't receive the text 
before that ended with ``afternoon'' or anything afterwards.
    To me, that was an illustration of why you can't just send 
9-1-1 text, because the system is not designed for this type of 
an exchange. When you dial 9-1-1, you want a response 
immediately. When you send a text, as many of the younger folks 
up behind you may know, it may go through instantaneously, and 
it may take 2 or 3 minutes. In the case of ``fternoon'', the 
first half of the text never got to me.
    So to me it is engage industry, work through the process, 
and you are going to get an industry that I am proud of that 
most of our CEOs can say they do everything in their power to 
be good corporate citizens. This is an example that I think 
should be repeated as we move forward.
    Mr. Bilirakis. Thank you very much.
    I thank the witnesses, of course, for their valuable 
testimony. The Members of the subcommittee may have additional 
questions for you or questions for you. We ask you to respond 
to these in writing. The hearing record will be open for 10 
days.
    Without objection, the subcommittee stands adjourned. 
Thanks so much for your patience. I appreciate it.
    [Whereupon, at 1:15 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
